<html>
<title> - PROPOSED FISCAL YEAR 2004 BUDGET REQUEST FOR THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 108-5]
[From the U.S. Government Printing Office]



                                                          S. Hrg. 108-5

  PROPOSED FISCAL YEAR 2004 BUDGET REQUEST FOR THE DEPARTMENT OF THE 
                                INTERIOR

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

 TO RECEIVE TESTIMONY REGARDING THE PRESIDENT'S FY 2004 BUDGET FOR THE 
                       DEPARTMENT OF THE INTERIOR

                               __________

                           FEBRUARY 11, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 ______

86-038              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington
                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                 Carole McGuire, Deputy Staff Director
                David Brooks, Democratic Senior Counsel
                Patty Beneke, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     3
Bunning, Hon. Jim, U.S. Senator From Kentucky....................     3
Campbell, Hon. Ben Nighthorse, U.S. Senator From Colorado........    22
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     1
Landrieu, Hon. Mary L., U.S. Senator From Louisiana..............    26
Norton, Hon. Gale, Secretary of the Department of the Interior; 
  accompanied by P. Lynn Scarlett, Assistant Secretary, Policy, 
  Management and Budget, Department of the Interior; and John 
  Trezise, Director, Office of Budget............................     5

                                APPENDIX

Responses to additional questions................................    43

 
  PROPOSED FISCAL YEAR 2004 BUDGET REQUEST FOR THE DEPARTMENT OF THE 
                                INTERIOR

                              ----------                              


                       TUESDAY, FEBRUARY 11, 2003

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-366, Dirksen Senate Office Building, Hon. Pete V. Domenici, 
chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The hearing will come to order.
    Senator Bingaman will be here momentarily. I have to leave 
in a couple of minutes. I have to go to The White House for 
about 20 minutes. That is the wrong time for you, Madame 
Secretary, But Senator Thomas will be here shortly and will 
chair the meeting.
    I have some opening remarks, which I will go ahead and put 
in the record. I have a number of questions, and in the event 
they are not asked, I will ask the staff to submit them en 
bloc. You may answer them at your convenience. They are pretty 
thorough from top to bottom in terms of your budget. We do not 
do that normally, but I thought it might be a good exercise to 
go through them with you for the record.
    I would ask that my remarks be made a part of the record, 
as if stated. My statement includes general comments about the 
budget. I have two things I want to ask you about in the few 
moments before I have to leave.
    When we passed the BACA land deal, which you are now 
familiar with, Senator Bingaman and I included a section in it 
that had to do with the disposal of surplus land. I do not know 
that you call it that. You have a fancier name for it. But it 
provided, essentially, that you could sell surplus property at 
auction and then you could allocate the money.
    Do you recall the provision I am talking about?
    Secretary Norton. Yes, Mr. Chairman.
    The Chairman. I really did not think that any department 
would follow up with it. It is something that interior 
departments just do not want to do for some reason. I note that 
you all are asking for some broader authority to include, 
within the definition, something more than we did in our bill. 
Might I suggest that that does not answer the question for me 
of whether you are doing anything about surplus property, as 
defined in the statute. So I am just going to lead with that 
question and then yield to Senator Bingaman. Are you doing 
anything about surplus property? Can you proceed without 
modifying the definition?
    Secretary Norton. Thank you, Mr. Chairman. That is a 
program that I do support. I think the BACA approach makes 
sense. What we found was that it was not functioning very well. 
It was one of those things that was on the books and was not 
really being taken advantage of.
    And so I asked my Department to take a look at it and to 
come up with some proposals that might allow it to function 
more effectively. And that is what we have proposed. We have 
done, I think, about $3 million last year and about $25 million 
for the current year, as proposed. But it is not as much as I 
think we could effectively do to basically manage our real 
estate portfolio better.
    The Chairman. So the modification that you are asking for 
would do what?
    Secretary Norton. It would, first of all, provide some 
better incentives for the Bureau of Land Management. They are 
the ones that basically bear all of the burden and got very 
little of the benefit. And so we are trying to work to make 
sure that the BLM has some better ability to use this to manage 
its real estate holdings to get the ones that are the most 
environmentally and programmatically desirable.
    Secondly, our problem often tends to be lack of ability to 
manage our lands and to use--to have funding for on-the-ground 
kinds of improvements and management of the lands. And we would 
like to make some of the funding, a small amount of the 
funding, available for that so that, as we acquire new lands, 
we have some ability to manage what we are acquiring.
    The Chairman. My last question, before yielding, has to do 
with a follow-up on BACA, in which both Senator Bingaman and I 
retain an abiding interest. I would hope that year by year your 
Department will have a concern sufficient to listen to the 
board of trustees when they discuss their needs with the 
Executive Branch.
    Clearly, until some time in the future, they are going to 
need funding every year to manage this very beautiful and large 
piece of property. For 1 year, almost 2 years, they have had to 
get by with almost nothing, because the executive budget had 
minimal funds for them.
    I think it is very important that you consider the BACA as 
sort of a treasure and see if we cannot make this idea of a 
trust work. We hope that you do not consider, since we put it 
in a trust, that we are trying to take it away from you. We did 
hope that a new management style might work, and it helped us 
get the bill through here.
    So I personally want to encourage that you be involved 
personally at the highest level with their particular needs to 
make the trust job function and to see that it is operative.
    Secretary Norton. Mr. Chairman, if I understand your point 
on that, this is something that I do believe in very personally 
and want to make sure that this is functioning properly.
    The Chairman. I meant very specifically that they need 
something in the executive budget each year to manage and 
operate their affairs. I hope that you look at that very 
carefully.
    Secretary Norton. Thank you.
    The Chairman. Senator Bingaman, before you arrived, I 
indicated that I have to go pay a visit downtown and that 
Senator Thomas is going to run the committee.
    Senator Bingaman. Okay.
    The Chairman. And that we thank the Secretary for coming.
    Senator Bingaman. Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Bingaman.
    [A prepared statement from Senator Bunning follows:]
   Prepared Statement of Hon. Jim Bunning, U.S. Senator From Kentucky
    Thank You, Mr. Chairman.
    Today's hearing on the Fiscal Year 2004 Budget for the Department 
Interior is important for the protection of our country's natural 
resources. I believe that funding conservation and management of those 
resources will help benefit communities today and preserve our cultural 
heritage for future generations.
    One particularly important program for the state of Kentucky is the 
Abandoned Mine Land (AML) Program. Coal mining has been important to 
Kentucky's economy and has helped keep Kentucky's electricity rates one 
of the lowest in the nation. AML has helped restore lands and waters 
impacted by mining but were left inadequately restored. While Kentucky 
and many other states continue to have a need for this program, I am 
concerned that its funding has remained stagnant and Kentucky's share 
has decreased over the past several fiscal years. This program is 
important for reclaiming sites that pose a danger to health and safety 
and should continue to receive adequate funding. Despite the work that 
has been accomplished in Kentucky since the inception of this program, 
many problems remain. Seasonal rains continue to saturate old mines and 
new reports of hazardous deep mine shafts continue to be received. I 
hope that we can restore AML's funding so that Kentucky and other 
states can make headway in addressing problems that threaten coalfield 
residents.
    I also support the President's wildfire prevention and suppression 
and Healthy Forest initiatives. Kentucky has worked hard to maintain 
healthy forests. While I know that western forests have been more 
affected by forest fires in recent years, I hope that Kentucky's 
forests are not forgotten and are a part of future forest fire 
programs.
    I know that Congress will have the tough job of practicing some 
fiscal restraint. Although fiscal year 2004 will be a challenging one, 
I am confident that we can practice restraint while protecting our 
nation's resources.
    I thank Secretary Norton and her staff for their hard work and her 
willingness to appear before us today to explain the Department of the 
Interior's budget in detail.
    Thank you, Mr. Chairman.

    Senator Bingaman. Should I proceed with an opening 
statement?
    Senator Thomas [presiding]. Yes, please do.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much for being here, 
Secretary Norton.
    Let me make a few statements about the budget as I see it 
and raise some concerns with you. At first glance, the budget 
appears to be fairly routine, sort of flat funding, a slight 
increase from what the President proposed last year. But when 
you look more closely, it seems to me there are serious 
concerns. First, let me just give as an example the 
administration proposal, the Department's proposal, for the 
Land and Water Conservation Fund.
    Your testimony indicates that the President's budget fully 
funds the Land and Water Conservation Fund at $900.7 million. I 
think the budget materials also reiterate that it is funded at 
the fully authorized level. But when you look into the details, 
it seems to me the facts are very different.
    The purpose of the Land and Water Conservation Fund--and 
maybe we have a disagreement here, but maybe we need to clear 
this up, because this is sort of a problem I have seen the last 
several years. The purpose of the Land and Water Conservation 
Fund was very clear. It was Congress's effort to take some of 
the revenue from the depleting of natural resources, in the 
case of oil and gas development in the Outer Continental Shelf, 
to take some of those revenues and use those to acquire other 
assets that had lasting value.
    Section 5 of the Land and Water Conservation Fund is very 
straightforward. It says that there are two authorized uses for 
the fund. One is Federal land acquisition. The other is for 
grants to States for acquisition of lands for open space and 
recreational purposes. Those are the two authorized uses, as I 
read section 5 of the Land and Water Conservation Fund.
    This is the third consecutive year that the administration 
has ignored that law, as I read it. Instead, the proposal here 
is to fund over $550 million out of the Land and Water 
Conservation Fund for extraneous purposes. Some are not even 
authorized programs. Others included in the proposal are 
important programs, but they are clearly not within the purpose 
of the Land and Water Conservation Fund.
    The actual story of the proposal is, when you look behind 
the press releases about fully funding the Land and Water 
Conservation Fund, the story just is very different. It appears 
to me that the President is proposing $160 million for the 
State grant program and proposing $187 million for the land 
acquisition part of the Land and Water Conservation Fund. That 
is $350 million, 38 percent of full funding. Not 100 percent, 
38 percent of full funding.
    This is a serious concern. The Federal land part represents 
a decrease of almost 50 percent from the amount that was 
appropriated 2 years ago. If you include the Forest Service 
funding, the President's proposal is to cut Federal land 
acquisition by 60 percent, not by 50, from 2 years ago.
    Clearly, as I say, some of the purposes that you are taking 
these funds for and using them for are meritorious. I am not 
saying that they are not meritorious. All I am saying is that 
they are not authorized for these purposes in the law. So I 
have a serious problem with that. As I say, it is not just a 
one-year problem. It seems to get worse each year. And this 
year I think it is clear that what is represented to be the 
case is not the case with regard to funding of the purposes of 
the Land and Water Conservation Fund.
    I am also concerned that there seems to be no funding 
request for rural water projects, which were passed by the 
Congress, signed by the President. They are the result of very 
major negotiation between members of Congress and the 
Department of the Interior. And then when the proposal is 
coming for funding, there is nothing requested.
    I see that there is an assumption that we will once again 
open ANWR for drilling in 2005.
    I am pleased that there is $200 million requested for 
PILTs, Payment in Lieu of Taxes. That is more than has been 
requested in the past. Of course, the $350 million is the 
authorized level. I would like to see us go to automatic 
funding of the authorized level there. And I have proposed that 
now for several years and hope that we can get administration 
support for that.
    I am also concerned that several of the regulatory items 
that are not really reflected in the budget, but which have 
come down recently, are really done without any attempt at 
consultation, at least with me or with any of my staff and 
other Democratic members of the Congress. Maybe there is 
consultation on the Republican side, but certainly not among 
any of the Democratic members that I am aware of. The RS-2477 
right-of-way rule is one example.
    I understand that there are some other controversial rules 
that may be on the way. We usually receive them on Friday 
afternoons right before a recess or right before Christmas. But 
they are not the result of consultation in any meaningful way.
    So those are questions and concerns that I have, after 
looking over your budget. But I am anxious to hear your 
explanation of your budget request.
    Secretary Norton. Thank you.
    Senator Thomas. If it is all right with the rest of you, 
what we will do is ask the Secretary for her statement. And 
then we will come back and then each of us will have 5 minutes 
for a statement or questions as we go.
    Madame Secretary, welcome. Go ahead.
    Secretary Norton. Thank you very much.
    Senator Thomas. We are delighted to have you here. If you 
would proceed, please.

 STATEMENT OF HON. GALE NORTON, SECRETARY OF THE DEPARTMENT OF 
   THE INTERIOR; ACCOMPANIED BY P. LYNN SCARLETT, ASSISTANT 
  SECRETARY, POLICY, MANAGEMENT AND BUDGET, DEPARTMENT OF THE 
     INTERIOR; AND JOHN TREZISE, DIRECTOR, OFFICE OF BUDGET

    Secretary Norton. Thank you. Good morning. It is a pleasure 
to be with all of you today to discuss the fiscal year 2004 
budget for the Department of the Interior. I have with me Lynn 
Scarlett, who is our Assistant Secretary for Policy, 
Management, and Budget, and John Trezise, who is the 
Department's Budget Director.
    Interior takes great pride in our mission to protect and 
manage the Nation's natural resources and cultural heritage, to 
provide scientific information about those resources, and to 
honor our special responsibilities for American Indians, Alaska 
Natives, and affiliated Island Communities.
    Our responsibilities lie at the confluence of people, land, 
and water. Our programs touch the lives of individuals across 
the Nation.
    Our 2004 budget request lays the foundation for us to build 
a legacy of healthy lands and thriving communities. Our budget 
request is $10.7 billion, the largest presidential request in 
the Department's history, sustaining a 25-percent increase over 
the year 2000 budget. On the revenue side, the Department 
anticipates that it will collect $7.8 billion in 2004, which is 
equivalent to 73 percent of Interior's current appropriations 
request.
    Our largest increase is in the area of Indian trust reform 
initiatives. Fulfilling our trust responsibilities presents a 
major challenge. The challenge is both retrospective and 
prospective. We inherited a history of inadequate management of 
trust accounts. Our budget lays a groundwork for a better 
future.
    Our budget for Indian trust programs includes $551 million 
for trust operations and reform. Our budget proposal reflects 
new management concepts that grew out of consultation efforts, 
including a reorganization of Indian trust offices to improve 
the delivery of services.
    This budget provides an increase of $168.5 million for 
trust programs. It is a 44-percent increase over last year. The 
2003 request for the Office of the Special Trustee is $275 
million, an 82-percent increase over last year's request. This 
is 17 times more than we spent in 1996, when the office was 
established. That reflects the serious responsibilities of this 
office.
    Within the Office of Special Trustee request is $130 
million for the Office of Historical Trust Accounting, an 
increase of $112 million over 2003. These funds will provide a 
major down payment toward our plan to complete a historical 
accounting for individual Indian money accounts, which was 
presented to the District Court in the Cobell litigation on 
January 6 of this year. Money should eventually resolve the 
disputes about the managements of trust funds over time and 
whether the Department's books are off by billions of dollars 
or the much smaller amounts that we expect.
    We hope to improve the management of our Indian trust 
program by consolidating our portfolio. Fractionated interest 
in those accounts represent the smaller and smaller bits of 
land that people own as the interest goes through the process 
of going from a person on their death to their heirs. We today 
have interests in a 40- or 80-acre tract of land that are as 
small as .00002 percent of the land. We have land that we 
manage where the income is under $1 a year for the owner.
    The fractionated interests continue to expand 
exponentially. Our budget proposes $21 million for land 
consolidation, which is an increase of $13 million. These funds 
will enable us to expand pilot efforts to reduce the 
fractionation of individual land ownership interests in a 
nationwide program.
    Our budget lays the foundation for leaving a legacy of 
healthy lands. Our request presents a blueprint for fulfilling 
the President's vision of a new environmentalism of citizen 
stewards and cooperative conservation. Building partnerships 
lies at the heart of this effort. Enduring conservation means 
many helping hands on the landscape. It requires a Nation of 
citizen stewards.
    Last year, we proposed a cooperative conservation 
initiative. We are again proposing this initiative, but 
structuring it around our bureau challenge cost share programs 
and our cooperative conservation grant programs. We have 
restructured this program based on the feedback that we 
received from Congress.
    It will tap into the tremendous potential that resides in 
conservation partnership. It will better enable our land 
managers to join with Americans across the Nation in caring for 
the land. Thousands of land owners and organizations remain on 
waiting lists to participate in our cooperative conservation 
grant programs.
    The 2004 budget includes $113 million for this program, 
including an increase of $9.1 million for the Fish and Wildlife 
Service Partners for Fish and Wildlife Program. The increase in 
our partners program, for example, will allow us to partner 
with 2,500 landowners and restore wetlands, uplands, and 
riparian habitat through voluntary cooperative agreements.
    Interior manages about one in every five acres of land in 
the United States. That is an awesome responsibility. We need 
to take care of those lands. We need to take care of the 
buildings and infrastructure through which we serve millions of 
visitors to our parks, refuges and BLM recreation sites. We are 
continuing our commitment to fulfill the President's pledge of 
addressing the maintenance backlog in our national parks, 
proposing nearly $706 million this year toward this effort.
    To date, National Park Service accomplishments have been 
impressive. But we still have more to do. A key focus will be 
to improve park roads. Here, too, we are reaching out to 
partners. We have signed a memorandum of agreement with the 
Federal Highway Administration to help us achieve our road 
maintenance goals efficiently. And the money for the park roads 
is in the Department of Transportation budget with the highway 
bill.
    We also need to find ways to manage water carefully and 
creatively for people, land, and the environment. Through its 
water infrastructure, the Department provides drinking water to 
31 million people and irrigates the lands that provide 60 
percent of the Nation's fruits and vegetables. Our budget 
request includes $11 million to launch a Bureau of Reclamation 
water initiative that uses conservation and innovation to make 
sure every drop of water counts. This initiative will benefit 
communities currently struggling with increased water demands, 
drought, and compliance with the Endangered Species Act.
    Lands managed by Interior include working landscapes where 
ranchers, energy partners, and other entrepreneurs help ensure 
that Americans have food, can warm their homes, and have 
shelter for their families. Federally managed lands in offshore 
areas supply about a third of the Nation's oil, natural gas, 
and coal.
    Our 2004 budget provides increases of almost $1 million to 
support the development of geothermal energy on public lands, 
as well as increased wind and solar opportunities. Our 
renewable energy program budget is four-and-a-half times the 
2002 amount. The budget also includes an increase of almost $1 
million to facilitate development of coal bed natural gas 
reserves, which is an abundant clean source of energy.
    What task is more important in all of our communities than 
educating our children? As we seek to educate them, the 
President has committed to leave no child behind. At Interior, 
this commitment centers on the children educated at Bureau of 
Indian Affairs schools and with bureau assistance. The 2004 
school operations request is over $529 million. Children also 
deserve safe and functional places to learn. Our budget 
includes a request to invest $293 million in funds to replace 
at least seven decaying and dilapidated school facilities.
    Perhaps the closest connection that most Americans have 
with the Department is through the recreation opportunities 
they enjoy on federally managed lands. With almost 500 million 
visits to these lands each year, Interior provides a wide array 
of recreational opportunities, fishing, hiking, hunting, 
camping, wildlife viewing, and so forth.
    Usually they think about the National Park System as the 
place where people go. We are seeing a dramatic increase on our 
Bureau of Land Management lands. And so we are requesting an 
increase of $5 million to enable BLM to continue to provide 
high-quality recreational opportunities.
    Our Everglades restoration efforts are an example of the 
type of partnerships that we want to build. As stewards of 
about one-half of the remaining Everglades ecosystem, the 
Department works with a broad team of Federal, State, and local 
partners. In 2004, our budget includes $112 million for 
Everglades activities, which is about $16 million above last 
year's budget. Near these Everglades restoration efforts is 
Pelican Island, the site of the Nation's first national 
wildlife refuge established 100 years ago. Next month we will 
be celebrating the centennial of the National Wildlife Refuge 
System. Our 2004 budget builds on last year's increase with an 
increase of nearly $26 million for refuge operations.
    The Fish and Wildlife Service fisheries program has played 
a vital role in conserving and managing fish and other aquatic 
resources. The budget recognizes this and includes an $8 
million increase for the National Fish Hatchery System.
    The natural resource challenge is an important component of 
the President's commitment to improve natural resource 
management in our national parks. The budget includes nearly $9 
million to increase this program. This is a cumulative increase 
of almost $105 million over the 2001 level.
    The Land and Water Conservation Fund State grant program is 
the cornerstone of our commitment to involve State governments 
in conservation planning. Our budget requests $160 million for 
the traditional LWCF State grant program, which is a $16 
million increase over the 2002 level enacted by Congress. The 
President's budget includes funding for the Land and Water 
Conservation Fund at $900 million through a medley of programs 
that emphasize LWCF goals being achieved through partnerships.
    We have two central resource protection goals. First, we 
want to leave a legacy of healthy lands by targeting our budget 
toward caring for the vast lands under our stewardship. The 
second is to extend our conservation and recreation 
achievements through partnerships. Through a mix of grant 
programs, we propose to leverage Federal Land and Water 
Conservation Fund dollars. These programs engage States, 
tribes, and other partners. They allow us to achieve 
conservation and outdoor recreation goals across many lands and 
with many landowners. Through leveraging, using conservation 
easements and other agreements, we are able to achieve more 
conservation than we would through fee acquisition alone.
    There are two challenges that we face. One is fire. The 
other is border protection. Last year over 7 million acres of 
Federal lands went up in flames during catastrophic wildfires. 
The President's health forest initiative will help us reduce 
decades-long buildups of underbrush and unnaturally dense 
forests. The budget continues a high level of funding, $186 
million, to reduce the buildup of brush, dead vegetation, and 
fire-prone invasive species. This allows us to reduce the risk 
of catastrophic wildfire.
    Through stewardship contracting that we hope will be 
adopted, as well as reductions in the paperwork needed for 
these fuels treatment programs, we hope to further improve the 
efficiency and the scope of our operations.
    We are also investing in greater security for our monuments 
and public lands that border Mexico and Canada. The 2004 budget 
includes $35 million in increases for improved security to 
protect our visitors, employees, and resources. More than $4 
million of this increase will be targeted to public lands 
located along the U.S. borders. Interior has control over lands 
that include about one-half of the border with Mexico and 
nearly 800 miles of the U.S.-Canada border.
    At the foundation of all of Interior's efforts is 
scientific information. It is the cornerstone of our resource 
management activities, providing a basis for decisions about 
resource protection, resource use, recreation, and community-
based programs. The 2004 budget provides a $3 million increase 
for USGS to enhance science support to Interior's bureaus to 
meet their high-priority needs.
    I appreciate the opportunity to run through some of the 
details of our budget. And I thank you for the opportunity to 
be here today to discuss this with you. As you can see, we are 
working to better manage our lands and resources through 
partnerships. Our ability to leave a legacy of healthy lands 
and thriving communities depends on how well we work together. 
Our 2004 budget sets the tools through which these partnerships 
can flourish.
    Thank you.
    [The prepared statement of Secretary Norton follows:]

      Prepared Statement of Hon. Gale A. Norton, Secretary of the 
                       Department of the Interior

    I am pleased to be here today before the Committee on Energy and 
Natural Resources to discuss with you the fiscal year 2004 budget for 
the Department of the Interior. I appreciate the opportunity to 
highlight a number of important initiatives and to answer questions 
that you might have. As an introduction to our 2004 budget request, I'd 
like to offer some observations about the Department's mission. We take 
a great deal of pride in our mission to:

  <bullet> Protect and manage the Nation's natural resources and 
        cultural heritage;
  <bullet> Provide scientific information about those resources; and
  <bullet> Honor our special responsibilities to American Indians, 
        Alaska Natives and affiliated Island Communities.

    Our responsibilities touch the lives of each individual across the 
Nation. How well we fulfill our mission influences:

  <bullet> Whether farmers will have water and people can turn on the 
        tap;
  <bullet> Whether our children will enjoy America's grand vistas, 
        places, and history;
  <bullet> Whether we can hike, bird watch, canoe, or hunt and fish in 
        the great American outdoors; and
  <bullet> Whether our landscapes are healthy and our communities are 
        thriving.

                            BUDGET OVERVIEW

    Our 2004 $10.7 billion budget request provides the single clearest 
statement of how we plan to honor these commitments in the upcoming 
year. It lays the foundation for us to build a legacy of healthy lands 
and thriving communities, including:

  <bullet> Resource Protection--Reflecting the Department's multiple 
        missions, the budget proposes $2.6 billion to fund programs 
        that improve the health of landscapes, sustain biological 
        communities, and protect cultural resources.
  <bullet> Serving communities--The budget proposal includes $5.0 
        billion to serve communities through fire protection, 
        generation of scientific information, education investments for 
        American Indians, and through activities to fulfill 
        responsibilities toward American Indians, Alaskan natives, and 
        the Nation's affiliated island communities.
  <bullet> Resource Use--Interior lands include many working landscapes 
        where ranchers, energy partners, and other entrepreneurs help 
        maintain thriving American communities and a dynamic economy. 
        The budget includes $1.5 billion to provide access for these 
        important uses.
  <bullet> Recreation--$1.4 billion in FY 2004 budget investments will 
        ensure recreational opportunities for all Americans in the 
        network of public lands, parks and refuges that the Department 
        administers.

    In total, the 2004 budget is the largest presidential request in 
the Department's history. This budget proposal is about 25 percent 
higher than the 2000 appropriations level of $8.6 billion, and 
represents an increase of $344.1 million, or 3.3 percent, over the 
amounts called for in the President's 2003 budget request. Permanent 
funding that becomes available as a result of existing legislation 
without further action by the Congress will provide an additional $3.0 
billion, for a total 2004 Interior budget of $13.7 billion. The 
Department anticipates that it will collect $7.8 billion in receipts in 
2004, equivalent to 73 percent of Interior's current appropriations 
request.
    The 2004 request includes $9.8 billion for programs funded in the 
Interior and Related Agencies Appropriations Act, an increase of $319.0 
million or 3.4 percent over the 2003 President's budget.
    The budget includes $916.2 million for programs funded in the 
Energy and Water Development Appropriations Act, an increase of $25.1 
million, or 2.8 percent above the 2003 President's budget.

                             TRUST PROGRAMS

    Nearly one-half of our $344 million increase for 2004 will fund 
trust reform initiatives. While the overall budget request is 
approximately 3.3% over the FY 2003 request, our FY 2004 Indian trust 
budget request is 44% higher than what was requested for FY 2003.
    Fulfilling our Trust responsibilities remains one of the 
Department's greatest challenges. The Department has responsibility for 
the management of 100,000 leases for individual Indians and Tribes on a 
land trust that encompasses approximately 56 million acres. Leasing, 
use permits, sale revenues, and interest of approximately $226 million 
per year are collected for approximately 230,000 individual Indian 
money accounts, and about $530 million per year are collected for 
approximately 1,400 tribal accounts per year. In addition, the trust 
manages approximately $2.8 billion in tribal funds and $400 million in 
individual Indian funds.
    Interior faces many challenges in reforming the management of its 
Indian trust responsibilities. First, the Department has not been well 
structured to focus on its trust duties. Second, fractionated interests 
in individual Indian allotted land continue to expand exponentially 
with each new generation. Today, there are approximately four million 
owner interests in the 10 million acres of individually owned trust 
lands. These four million interests could expand to 10 million 
interests by the 2030 unless an aggressive approach to fractionation is 
taken. There are now single pieces of property with ownership interests 
that are less than 0.000002 percent of the whole interest.
    Third, there are 230,000 open individual Indian money accounts, the 
majority of which have balances under $100 and annual transactions of 
less than $1,000. Interior maintains thousands of accounts that contain 
less than one dollar, and has a responsibility to provide an accounting 
to all account holders. Unlike most private trusts, the Federal 
Government bears the entire cost of administering the Indian trust. As 
a result, the usual incentives found in the commercial sector for 
reducing the number of accounts do not apply to the Indian trust.
    An increase of $112.5 million for the Office of Historical Trust 
accounting will support the Department's plan to conduct a historical 
accounting for individual Indian money accounts and to account for 
funds in Tribal accounts. On January 6, 2003, the Department presented 
a plan to the District Court in Cobell v. Norton for the historical 
accounting for about 260,000 IIM accounts. The work described in that 
Plan is expected to take five years to complete and is preliminarily 
estimated to cost approximately $335 million. The budget includes 
$130.0 million for these historical accounting activities. Funds also 
will be used to provide for historical accounting activities related to 
tribal accounts.
    The 2004 budget proposes $21.0 million for Indian land 
consolidation, an increase of $13.0 million, to expand pilot efforts to 
reduce the fractionation of individual land ownership interests into a 
nation-wide program. During 2003, we will establish a national program 
office, standardize business practices, and develop a strategic plan to 
guide expansion to more tribal reservations.
    Interior is reorganizing trust functions in BIA and OST. The new 
organization was developed after detailed analysis of the prior 
organization and a year-long consultation process with tribal leaders. 
In one of the most extensive consultation efforts ever undertaken by 
the senior management level at the Department on any issue relating to 
Indian Country, over 45 meetings with tribal leaders provided detailed 
findings and recommendations. The new organization reflects a synthesis 
of the views heard during the consultation process. It will meet 
fiduciary trust responsibilities, be more accountable at every level, 
and operate with people trained in the principles of trust management. 
The 2004 budget provides an increase of $15.0 million to support the 
new organization, which together with base funding available in BIA and 
OST will provide resources needed for the new organization in 2004.
    The proposed $168.5 million increase for trust management reforms 
includes funding to help rebuild Bureau of Indian Affairs information 
technology infrastructure to support trust and non-trust programs. The 
BIA's information infrastructure and security use outmoded hardware and 
software that do not meet lifecycle management and systems architecture 
principles, and do not comply with the security requirements of OMB 
Circular A-130 and the Government Information Security Results Act. The 
Department requests IT funding for the significant new investments 
needed to address these challenges.
    The 2004 budget includes increases of $29.5 million for a ground-up 
rebuilding of the BIA IT infrastructure to support trust, as well as 
non-trust programs, and $2.5 million for Interior-wide IT security. The 
proposed rebuilding will fit within the enterprise architecture and 
includes full business cases for proposed investments. The 2004 budget 
also proposes an increase of $4.5 million to accelerate a new strategy 
to administer, manage, search, retrieve, and store trust records. 
Reform efforts to date have improved records collection and security. 
However, recent Interior reviews have resulted in a reassessment of the 
resource requirements needed to establish proper records retention 
schedules, establish and implement record keeping requirements, 
safeguard records, implement and maintain training programs, and meet 
records-retrieval needs in an effective and cost-efficient way.

                  COOPERATIVE CONSERVATION INITIATIVE

    The 2004 budget lays the foundation for a legacy of healthy lands, 
presenting a blueprint for fulfilling the President's vision of a new 
environmentalism of citizen stewards and cooperative conservation. 
Building partnerships lies at the heart of this effort. Last year's 
budget proposed a Cooperative Conservation Initiative. This year, our 
budget again includes a Cooperative Conservation Initiative, structured 
around bureau Challenge Cost Share programs and other existing 
cooperative conservation grant programs.
    The Cooperative Conservation Initiative, funded at $113.2 million, 
will empower citizen stewards to conserve and protect natural 
resources, while also achieving important community and economic goals. 
The Initiative builds on existing conservation partnership programs and 
will provide new and expanded opportunities for landowners, land 
managers, and others to participate in projects that foster innovation 
and create incentives for stewardship. Our budget also provides funds 
for a public lands volunteers program.
    The 2004 CCI request builds upon Interior's long history of working 
collaboratively with others. It builds on existing conservation 
partnership programs, including the challenge cost share programs of 
the Bureau of Land Management, Fish and Wildlife Service, and National 
Park Service, as well as FWS's Partners for Fish and Wildlife program, 
Coastal program and Migratory Bird Joint Venture program. This 
initiative also funds a program of volunteers to increase public 
awareness of, and appreciation for, natural and cultural resource 
protection.
    The CCI request includes a $9.1 million increase for the Partners 
for Fish and Wildlife program, the largest increase ever provided to 
this program. The Fish and Wildlife Service will partner with 2,500 
additional landowners on the program's waiting list. These new 
partnerships will restore an additional 19,298 acres of wetlands; 
83,601 acres of native grasslands, forest and other uplands; and 241 
miles of riparian and in-stream habitat over 2003 levels.

                          CONSERVATION GRANTS

    The Private Stewardship grants and the Landowner Incentive Program 
recognize continuing opportunities for conservation of endangered and 
threatened species through partnerships with private landowners. The 
budget request includes $50.0 million for Private Stewardship grants 
and the Landowner Incentive program. Interest in the State portion of 
the program is high, with over 80 grant requests totaling $61.0 million 
for the program's first year.
    The 2004 budget request includes a comprehensive, partnership 
approach to meeting the President's commitment for fully funding the 
Land and Water Conservation Fund. The 2004 LWCF program includes $662.4 
million for the Department. It emphasizes conservation partnerships 
with States, Tribes, local communities, and private citizens, including 
a strong State grant program, and reduced Federal land acquisition. 
This proposal recognizes the costs of adding to the significant land 
holdings that are already managed by the Department and our commitment 
to take better care of these lands. It also recognizes the value and 
cost-effectiveness of partnerships. We can accomplish our conservation 
goals by conserving endangered and at risk species through conservation 
easements, working with private landowners to enhance habitat for 
endangered and at risk species, and other innovative partnership 
approaches.

                   CONSERVING WILDLIFE AND FISHERIES

    March 14, 2003 marks a milestone in the history of wildlife 
conservation in America--the centennial anniversary of the national 
wildlife refuge system. Reflecting the importance of this event and the 
record of conservation established through this unique system of lands 
and resources, the 2004 budget builds on last year's historic $56.5 
million budget increase for the national wildlife refuge system by 
requesting a total of $402.0 million for refuge operations and 
maintenance, an increase of $25.5 million over 2003. The total budget 
request for the Fish and Wildlife Service is $1.3 billion.
    The Fish and Wildlife Service fisheries program has played a vital 
role in conserving and managing fish and other aquatic resources. The 
2004 budget enhances the Federal contribution to aquatic resource 
conservation partnerships, by providing an $8.8 million increase for 
the FWS fisheries program. The request includes an $8.1 million 
increase for the national fish hatchery system for priority recovery 
and restoration tasks and advancing shared applied science. Also 
included is a $1.0 million increase to combat aquatic nuisance species, 
part of the larger, coordinated interdepartmental effort discussed 
below.

                           OTHER PARTNERSHIPS

    As stated earlier, the 2004 budget is based on a vision of 
partnerships and leaving a legacy of healthy lands and thriving 
communities resulting from efforts to work together across landscapes 
and across communities. The 2004 budget sets forth the tools through 
which these partnerships can flourish and leave a legacy of healthy 
lands and thriving communities.
    The Department's parks, refuges, and public lands host nearly 500 
million visitors a year and provide access for economic uses, 
activities that fuel the economic engines for communities adjacent to 
our Federal lands. Recognizing that the Department's decisions can 
greatly impact these gateway communities, the Department is working in 
partnership with the people who live on the private lands that border 
these areas and developing collaborative approaches to address local 
issues.
    Everglades--The Everglades restoration effort also affirms the 
power of partnerships. As stewards of about one-half of the remaining 
Everglades ecosystem, the Interior Department works with a broad team 
of Federal, State and local partners. In 2004, the President's budget 
includes $111.8 million for Interior Everglades activities, an increase 
of $15.7 million above the 2003 request. The request includes $40.0 
million to protect the Big Cypress National Preserve by acquiring the 
Collier family's mineral right holdings.
    Exemplifying the partnership approach to this restoration effort, 
the Department is building stronger coalitions to implement the 
restoration program, including:

  <bullet> Forming an advisory committee for public input to land 
        managers in South Florida on a wide range of issues;
  <bullet> Providing scientific expertise to the State and the U.S. 
        Army Corps of Engineers to meet the objectives of the 
        Comprehensive Everglades Restoration Plan; and
  <bullet> Taking steps to ensure that appropriate quantities of water 
        are distributed at the right times and in the right places to 
        restore the unique Everglades ecosystem.

    Invasive Species--The Department is participating in an interagency 
performance budget to promote invasive species management that is being 
coordinated by the National Invasive Species Council. The 2004 budget 
proposes an additional $9.0 million for the Department's portion in 
this interagency effort.
    This increase will allow Interior to participate in the control and 
management of tamarisk and giant salvinia in the southwest; conduct 
ballast water research; control and eradicate nutria in the Chesapeake 
Bay and in Louisiana; plan early detection and rapid response to 
eradicate outbreaks of sudden oak death in eastern hardwood forests of 
the central Appalachian Mountains; and develop a marine invasive 
species early detection warning system.
    Abandoned Mine Reclamation and Clean Streams--Through partnerships 
the Office of Surface Mining is restoring streams impacted by coal 
mining. Its Clean Streams program involves State and local groups to 
enhance miles of riparian areas. The President's budget request 
includes $281.2 million for State and Federal programs to protect the 
environment during coal mining, assure prompt reclamation after mining, 
and clean up abandoned mine lands. This is $1.8 million more than is 
budgeted for 2003. The request will enable OSM to continue directly 
administering Federal regulatory and reclamation programs in States 
that do not operate their own surface mining programs as well as on 
Federal and Indian lands, and to reclaim 6,900 acres of disturbed land 
and other hazards that threaten human health and welfare and 
environmental quality.
    Payment of Lieu of Taxes--The President's proposal calls for $200.0 
million for Payments in Lieu of Taxes, to compensate States for Federal 
lands that cannot be taxed by local governments, an increase of $35.0 
million over the proposed 2003 budget. The 2004 budget proposes to move 
the program from the Bureau of Land Management to the Departmental 
Management account to reflect the breadth of this program. The lands on 
which the payments are made are administered by the NPS, FWS, and USDA 
Forest Service, as well as by the Bureau of Land Management.

                   WILDLAND FIRE AND HEALTHY FORESTS

    Building a legacy of healthy lands and thriving communities means 
applying a healing hand to the landscape. The Department is advancing 
the President's Healthy Forests Initiative to reduce decades-long 
build-ups of underbrush and unnaturally dense forests.
    The budget proposes $698.7 million for wildfire prevention and 
suppression and Healthy Forest initiatives in fiscal year 2004. This is 
a $45.0 million, or 7 percent increase over last year's budget 
proposal. The request includes continued funding for a robust fuels 
treatment program at $186.2 million, 400 percent above spending in 
2000. At this funding level, the Department will treat 307,000 high 
priority acres in the wildland-urban interface and an additional 
768,000 acres that are not in the wildland-urban interface.
    The Department is also taking a number of steps to improve the 
productivity and performance of the fuels program that will help the 
Department's firefighting bureaus take maximum advantage of the 
opportunity for fuels treatment projects at the beginning of the fiscal 
year when weather and workload conditions for fuels treatments are 
optimal. The Department is accelerating project planning and selection, 
issuing policy guidance and proposed legislative language designed to 
facilitate and expand contracting in the fuels program, and issuing 
policy guidance to expedite the budget allocation process for the fuels 
program and individual projects.
    The fuels treatment program is key to restoring forests and 
rangelands to long-term health and preventing damage caused by 
catastrophic wildfires. One approach to improving forest health that 
holds promise is stewardship contracting. Stewardship contracts allow 
the private sector, non-profit organizations, and local communities to 
productively use materials generated from forest thinning.
    The 2004 budget proposal also calls for $282.7 million for fire 
preparedness, including an increase of $5.0 million for aviation 
contract costs. The fire suppression request of $195.3 million reflects 
a $35.0 million increase to fund suppression operations at the revised 
10-year average. This funding level will provide resources to respond 
to an ``average'' fire year without having to rely on emergency 
borrowing that can be disruptive to other Interior programs. The 
Department is also working to develop new and improved current cost 
control strategies for suppression. The budget also includes $24.5 
million for rehabilitating burned areas. Timely stabilization and 
rehabilitation of severely burned areas are critical to prevent further 
damage due to erosion, loss of soil nutrients, and the introduction and 
spread of invasive species. The budget also continues funding for Rural 
Fire Assistance at $10.0 million. Frequently, local firefighting 
departments are the first responders to wildland fires on public lands 
and play a vital role in preventing fires from escaping initial attack 
and becoming exponentially more expensive to suppress. In 2002, the 
Department assisted 5,349 rural and volunteer fire departments through 
grants, technical assistance, training, supplies, equipment, and public 
education support.

               HELPING TO MEET THE NATION'S ENERGY NEEDS

    Interior plays a central role in meeting the Nation's energy needs. 
Conservation, renewable energy, and traditional energy sources all play 
an intertwined role in helping the Nation meet these needs. The budget 
supports the President's and the Department's goal for increasing 
domestic energy supplies from a variety of sources, in an 
environmentally acceptable manner, with a special emphasis on 
developing renewable energy sources on Federal lands.
    The 2004 budget request includes a net increase of $3.6 million for 
BLM energy-related programs, including expanded energy development on 
the Alaska North Slope and an expanded renewable energy program. The 
budget proposal includes an increase of $425,000 for activities on the 
North Slope, for a total of $8.4 million. Funding will support planning 
for sales in the National Petroleum Reserve-Alaska, and, if authorized, 
the Arctic National Wildlife Refuge. Congressional authorization will 
be required for a lease sale to be conducted in ANWR.
    The budget requests an increase of $2.0 million for BLM to 
strengthen inspection and enforcement activities, targeted primarily to 
the Powder River and San Juan basins. The budget also proposes a 
$500,000 increase to expand resource monitoring to improve assessment 
of the cumulative impacts of oil and gas development, especially on 
cultural resources and species at risk.
    The 2004 budget includes $2.0 million for renewable energy 
resources. This includes an increase of $850,000, or nearly 77 percent, 
over the 2003 budget to support the development of geothermal energy on 
public lands, as well as increasing wind and solar energy 
opportunities.
    The Outer Continental Shelf is projected to produce over 25 percent 
of both the Nation's oil and natural gas in 2003. The Minerals 
Management Service is the primary steward of the mineral resources on 
the OCS. The MMS budget of $171.3 million includes an increase of $1.6 
million to meet increased workload brought about by the demand for 
Outer Continental Shelf program services in the Gulf of Mexico. The 
2004 budget includes a total of $11.6 million, an increase of $2.9 
million over 2003 funding levels, for MMS to employ innovative business 
processes and advances in electronic technology in the offshore 
program, and an increase of $300,000 to investigate the energy resource 
potential found in methane hydrate formations. The MMS will also invest 
an additional $3.0 million to operate and maintain its minerals revenue 
management and royalty-in-kind systems.
    The 2004 BIA request includes a $2.0 million increase for grants to 
Tribes to evaluate mineral resource potential on tribal trust and 
restricted lands. The request also includes $1.0 million to help Tribes 
expedite the development of tribal regulations governing mineral 
leasing and permitting, and rights-of-way of tribal lands required 
under the Energy Policy Act, 2002.

                          TAKING CARE OF PARKS

    Complementing the Department's cooperative conservation commitments 
is a continued investment in taking care of National Parks. The 
President's budget proposes a $2.4 billion budget for the National Park 
Service, an increase of $8.3 million above the President's 2003 
proposal.
    This budget continues the Department's commitment to fulfill the 
President's pledge of addressing the maintenance backlog in National 
Parks, proposing $705.8 million this year toward this effort, a $44.7 
million or seven percent increase over 2003. The budget includes an 
increase of $9.0 million for cyclic maintenance. This increase will 
provide additional funds for regular maintenance activities and will 
help the NPS keep pace with its maintenance needs and prevent 
additional projects from becoming deferred. It also includes an 
additional $8.2 million for the repair and rehabilitation program, 
including a $2.6 million increase for comprehensive condition 
assessments at parks. Data collected through the condition assessments 
will be used in 2004 to evaluate progress in eliminating the deferred 
maintenance backlog, as measured by a facility condition index.
    To date, our accomplishments are impressive. For example, the Many 
Glacier Hotel at Glacier National Park was built in 1914. A highly 
recognized National Landmark, this facility signifies an important 
period in the development of the National Park Service. Due to the 
harsh climate and insufficient maintenance in the past, this important 
landmark had deteriorated to a stage where emergency stabilization was 
necessary. The Department is in the process of stabilizing this 
important facility.
    But we still have more work to do. A key focus in the 2004 budget 
will be to improve park roads. Here, too, the Department is reaching 
out to partners. A signed memorandum of agreement with the Federal 
Highway Administration will help us achieve our road maintenance goals 
efficiently. The Department of Transportation's 2004 budget proposes 
$300.0 million in 2004 for Park road repair as part of the 
reauthorization of TEA-21, bringing the total park maintenance budget 
to over $1 billion.
    In the National Park Service, the Natural Resource Challenge helps 
Park managers improve resource management by strengthening the 
scientific base of knowledge about park resources. Our budget proposes 
$76.1 million, an $8.5 million increase over 2003, for the program. 
This increase will provide a three-year cumulative total increase of 
over $104 million above the 2001 level. The Natural Resource Challenge 
is an integral component of President Bush's ongoing commitment to 
improving natural resource management in Parks.

                            WATER INITIATIVE

    The 2004 budget also proposes ways to manage water carefully and 
creatively for people, land, and the environment. The poet Thomas 
Hornsby Ferris, wrote about the West: ``Here is a land where life is 
written in water.''
    What was true 100 years ago remains true today. Managing water 
wisely lies at the heart of maintaining healthy lands and thriving 
communities. The budget request includes $11.0 million to launch a 
Bureau of Reclamation Water Initiative that uses collaboration, 
conservation, and innovation to make sure every drop of water counts. 
This initiative is expected to benefit communities currently struggling 
with increased water demands, drought, and compliance with the 
Endangered Species Act. The funding increase will be used to: develop 
pilot projects that demonstrate how to prevent crises-level water 
conflicts in the West; expand the use of science to improve 
desalination technology, promote adaptive management of watersheds, and 
fund peer review of Endangered Species Act consultations; design water 
management programs that address environmental needs on a basin-scale; 
and train Reclamation employees to help them better carry out the ESA 
as it relates to Federal actions.
    Including the $11.0 million water initiative, the 2004 budget 
proposes $878.0 million for the Bureau of Reclamation. The request also 
includes $58.0 million for the Animas-La Plata Project; $170.1 million 
for the Central Valley Project; $20.8 million for the Klamath Project; 
$34.1 million for Central Arizona Project: $17.4 million for the Middle 
Rio Grande Project; and $15.0 million for the California Bay-Delta 
Restoration Project.

                            INDIAN EDUCATION

    No task is more important to the American community than educating 
its children. In education, the President has committed to ``leave no 
child behind.'' At Interior, this commitment centers on the 48,000 
children educated at schools operated by the Bureau of Indian Affairs 
or by Tribes under BIA grants or contracts.
    The budget request for Indian education continues the President's 
commitment with a robust $528.5 million school operations budget 
request, including funding for teacher pay increases. The budget 
includes $3.0 million to establish a separate fund for new 
administrative cost grants to encourage more Tribes to exercise their 
authority to operate BIA schools by providing full funding for start-up 
costs for the first year of tribal operation of bureau-operated 
schools.
    Children deserve safe, functional places to learn. The 2004 budget 
invests $292.6 million in school facilities, including funds to replace 
at least seven high priority school facilities and to repair schools 
identified in the Indian school maintenance backlog. The President's 
goal is to eliminate the backlog by 2006.

                               RECREATION

    With almost 500 million visits each year to the Department's lands, 
Interior provides a wide array of recreational opportunities, including 
fishing, hiking, hunting, camping, and wildlife viewing. Public lands 
managed by the Bureau of Land Management provide recreational venues 
for a growing population in the West, hosting over 60 million visitors 
annually.
    The 2004 budget requests an increase of $5.2 million to enable the 
Bureau of Land Management to continue to provide quality recreational 
opportunities. BLM will address transportation and access needs and 
challenges, expand interpretive and other visitor services, and support 
greater outreach and consultation efforts to help resolve user 
conflicts in the face of growing visitation.
    In recreation as in conservation, partnering is central to achieve 
our recreation goals. The Department depends on the contributions of 
200,000 volunteers, almost three times Interior's Federal workforce, to 
help address resource protection and public recreation needs. Over 
126,000 volunteers work in parks, the rest work in refuges, public 
lands, and other Interior sites across the country. In 2004 volunteers 
will assist NPS staff with important park projects including the Lewis 
and Clark bicentennial, the Powered Flight centennial, and the 
Jamestown 400th anniversary. The budget request proposes to increase 
funding by $1.5 million for partnership efforts and volunteer 
recruitment and training. A $1.0 million increase is aimed at 
bolstering volunteer participation and improving park capacity to 
supervise, train, and reward volunteers. An increase of $500,000 will 
allow NPS to establish full time volunteer coordinators to manage an 
expanding program.
    The Department's partnerships include working with States. Today, 
the LWCF State grant program is a cornerstone of the Secretary's 
commitment to involve State governments in conservation and recreation 
activities. This program, enacted in 1965, helps States develop and 
maintain high quality recreation areas and stimulate non-Federal 
investments in the protection and maintenance of recreation resources 
across the United States. Reflecting the President's goals, the 
Interior LWCF program seeks to promote cooperative alliances, leave 
land on State tax roles, and achieve conservation goals by emphasizing 
innovative alternatives to fee simple title purchases, such as 
conservation easements and land exchanges. This emphasis also enables 
Interior land management agencies to focus more funds on caring for 
lands already under their management.
    The President's budget fully funds the Land and Water Conservation 
Fund at $900.7 million. The LWCF proposal calls for $160.0 million in 
State grants, an increase of $10.0 million over FY 2003 budget 
proposal, and a $16.1 million increase over the 2002 level enacted by 
the Congress.

                      LAW ENFORCEMENT AND SECURITY

    The budget calls for increases of $34.7 million for Interior's law 
enforcement and security programs. The money would be used to hire 
additional personnel, provide more training, and improve security 
operations. This includes an increase of $28.7 million that is 
earmarked for strengthening law enforcement and security operations at 
key Interior visitor sites and $6.0 million to increase protection and 
law enforcement at Interior refuges, public lands, and parks along U.S. 
borders with Mexico and Canada. Of this increase $26.8 million is 
slated for security improvements at the Jefferson National Expansion 
Area in St. Louis, Missouri; Independence National Historical Park in 
Philadelphia, Pennsylvania; and the Washington Monument in Washington, 
D.C.

                                SCIENCE

    All of the Department's efforts require good information. 
Scientific information is the cornerstone for Interior's natural 
resource management activities, providing a basis for making decisions 
about resource protection, resource use, recreation, and community-
based programs. The USGS has the principle responsibility within 
Interior to provide its bureaus the earth and natural science 
information and research necessary to manage the Nation's natural 
resources.
    The President's 2004 budget proposes $895.5 million for the USGS, a 
net increase of $28.2 million over the FY 2003 request. This includes a 
$4.0 million increase to expand invasive species research and develop a 
model for a national early warning invasive species detection network 
for land managers. It also includes $3.0 million increase for the 
Science on the DOI Landscape initiative to provide dedicated funds for 
enhanced science support to Interior's bureaus to meet their high-
priority science needs.

                               CONCLUSION

    The Interior Department's responsibilities lie at the confluence of 
people, land, and water. The 2004 budget funds programs that support 
our broad and multiple missions. Leaving a legacy of healthy lands and 
thriving communities requires resources, creativity, and, above all, 
collaboration. The 2004 budget supports this vision of forging 
partnerships.
    This concludes my overview of the 2004 budget proposal for the 
Department of the Interior and my written statement. I will be happy to 
answer any questions that you may have.

    Senator Thomas. Thank you, Madame Secretary. Appreciate 
your statement.
    What we plan to do here is: the chairman, before he left, 
and Senator Bingaman have made opening statements. Now I think 
we will go around in the order that you arrived and have 5 
minutes for questions or statements, whatever you would choose 
to do. So I will begin with that.
    Thank you again for your being here. Thank you for your 
efforts at the Department. I think you have done very well over 
time. Certainly you have lots of priorities to deal with, with 
a certain amount of fiscal discipline that has to go with that. 
And we are all faced with that, of course. It is a big job, and 
we can do it.
    You mentioned the healthy forest thing. I have been seeing, 
on the TV, some ads that indicate that the healthy forest is 
simply a way of allowing the lumbering people, the logging 
people, to have unlimited access. How do you react to that?
    Secretary Norton. First of all, when we look at most of the 
areas for which the Department of the Interior has 
responsibilities, these are not areas where anybody has great 
designs for timber production. These are areas where we have to 
entice people to come in and do the care that the forest needs.
    For example, some of our fields treatment projects deal 
with tamarisk, otherwise known as salt cedar. It is basically a 
shrub that grows along riverbanks. It is an invasive species. 
So we are dealing with that.
    We are dealing with areas where the forests are 10 times or 
15 times as dense as they were in 1900. And so most of the 
trees, rather than being giant, healthy trees, are scrawny and 
small, because they are too closely crowded together. If we 
thin out those forests, we not only minimize fire danger, we 
improve the health of those forests.
    Senator Thomas. I hope we can get a little of that 
information out and in the public, because I certainly agree 
with you.
    One of the specifics is: The administration is recommending 
an extension of AML fees through 2013. As you know, this 
program has been in place for a number of years. It was 
designed to collect a certain amount of money from the mines, 
both open pit mines and underground mines. The money was to 
come to the Government, the Federal Government, half of it to 
be returned to the States. That has not been the case. The 
States have not gotten their share. As a matter of fact, there 
is owed about $900 million to the various States and Indian 
reservations.
    If this is renewed, do you have some efforts to comply with 
the law, as it has been, or do you expect to change the law? 
What is the financial arrangement with that?
    Secretary Norton. We will certainly be working with all of 
you on going forward with reauthorization of this program. As 
you know, there are a number of demands on that, including 
paying for mineworker benefits from the interest on the funds 
that are on hold. I think we need to address the really serious 
problems that still exist from abandoned mines, that in some 
parts of the country are true health and safety problems. And 
so that is our highest priority. We want to work with you to 
make sure that is addressed.
    Senator Thomas. Well, I hope if we renew it, renew it as it 
is, that then we comply with the law, which is to return 50 
percent of that to the State that made the contribution. And we 
will be pressing for that.
    Very quickly, energy, of course, production and so on, we 
want to do in a fashion that protects the environment and this 
and that. And yet, we want to continue to do it. Is there an 
effort here, particularly among the BLM, to be able to produce 
permitting more quickly? That seems to be one of the 
difficulties in terms of production in the West.
    Secretary Norton. We can get you the exact amount, but we 
do have funding for both increased permitting and also 
increased oversight and monitoring of activities. And so we are 
carrying forward with the environmental planning and with 
permitting.
    Senator Thomas. Very quickly, you mentioned the Homeland 
Defense aspect of the national parks, for instance, that are on 
the border of both Canada and Mexico. How do you intend to 
increase the security there? And do you do it as Park Service 
people, or does that then become a responsibility of Homeland 
Security? How do you see that happening?
    Secretary Norton. We have responsibility, through the Park 
Service and Fish and Wildlife Service, BIA, and BLM lands that 
are on the border, to provide law enforcement for our lands. 
The border patrol has the primary responsibility for dealing 
with the influx of illegal immigrants and with the drug 
trafficking and so forth. So we are trying to work in 
partnership with them. It is my understanding that they have a 
significant increase in their budgets for the coming year as 
well.
    Senator Thomas. It is my understanding, however, they have 
not been on the scene in the parks.
    Secretary Norton. Their primary focus has been on the 
portals, the specific areas where people come through, and on 
the urban areas. Ours are way off far from those urban areas. 
So we are looking at the Organ Pipe in Arizona, for example, at 
a vehicle barrier along the border, as one way of trying to 
stem that flow.
    Senator Thomas. I see.
    Senator Bingaman.
    Senator Bingaman. Thank you very much.
    Let me ask on the oil and gas--this is something of a 
follow-up to Senator Thomas's question--I wrote a letter in 
September of last year to Kathleen Clark. And she responded to 
me about the number of inspectors for the I&E activities that 
the BLM is engaged in in the San Juan Basin. She indicated that 
they were committed to hiring an additional 13 inspectors. This 
is because of the increased activity there, coal bed methane 
activity, but also disputes between coal lease owners and 
methane operators.
    Do you know if those inspectors are going to be hired this 
fiscal year?
    Secretary Norton. It is my understanding that that is on 
track.
    Senator Bingaman. Okay. That is good. Let me also ask one 
other New Mexico-specific issue. We have a group called the Rio 
Puerco Watershed Management Committee, which we set up many 
years ago. And it is a model for collaborative decision making 
to try to rehabilitate a degraded watershed. Do you know if the 
BLM is requesting funds for that group?
    Secretary Norton. Let me ask John Trezise to respond.
    Mr. Trezise. Senator Bingaman, yes, we are. I believe it is 
$400,000. But we will confirm that with your staff.
    Senator Bingaman. If you could give us specifics on that, I 
would appreciate it.
    On rural water issues, I know, as I indicated in my opening 
statement, there is no request to fund some of the rural water 
projects. I wondered if you could explain why you did not seek 
any funding for those.
    Secretary Norton. There are two aspects of that. The first 
is that for many of our programs we had to weigh things against 
Indian trust allocation, because that was our highest priority 
with a $160 million increase. We have had to look very closely 
at other programs.
    As we looked at the rural water program, OMB did something 
called a program assessment rating that looked at that 
program's effectiveness. This was a program that they found was 
not effective, had poorly defined goals and criteria. It did 
not compare well with programs at USDA and EPA that had similar 
goals.
    Our program serves about 350 people for every $1 million 
that we spend. USDA and EPA serve about 1,600 to 1,700 people. 
So they are able to serve about 5 times as many people. And so 
we want to see how our program can be made more effective and 
work with you all on some overall approach and goal setting for 
the program.
    Senator Bingaman. Then you would be willing to work with us 
on some comprehensive legislation related to rural water 
projects in this Congress.
    Secretary Norton. Yes, sir. That is exactly what we would 
like to work on.
    Senator Bingaman. Okay. There was something in the paper 
about the Department intending to outsource the science program 
at the National Park Service. Can you explain what you are 
intending to do there, and any other outsourcing that you 
anticipate in the Park Service?
    Secretary Norton. Senator, that was one of those things 
that was sort of so far off track it is hard to begin to 
explain. In essence, we were going through the legislation that 
was adopted, called the Fair Act, that requires us to look at 
programs to see if they are appropriately outsourced. We are 
meeting the goals established through the President's 
management agenda of examining programs. But that in no way 
means that we are outsourcing all of those programs. We are 
simply examining them to see if it is appropriate.
    The current approach has been, in examining programs, to 
look at positions to outsource basically where no one will lose 
a job. We have a huge turnover coming up with people who are 
eligible for retirement. In some of our programs, about 60 
percent of our people will be eligible for retirement in a few 
years.
    In those areas, we are looking at outsourcing and to 
provide areas for people to move into if we do decide to 
outsource some things. With a Department that is facing a huge 
turnover of employees in coming years, we are looking at what 
makes sense to be done internally and what should be 
outsourced.
    We have been working closely with our employee unions, 
trying to do something in a comprehensive way, and right now we 
are the only department, as far as I know, that has an 
agreement with the employee union on going forward with this.
    Senator Bingaman. Do I still have some time?
    Senator Thomas. That little red light there.
    Senator Bingaman. That means stop?
    Senator Thomas. Yes, sir.
    [Laughter.]
    Senator Bingaman. All right. I will stop.
    Senator Thomas. Thank you.
    Senator Alexander.
    Senator Alexander. Mr. Chairman, Secretary Norton, thank 
you for being here.
    A couple of years ago, a $16 million rider was attached to 
a Department of Transportation appropriations bill authorizing 
the building of a road along the north shore of Fontana Lake in 
Swain County, North Carolina. The road goes through some of the 
most pristine wilderness areas in the Great Smokey Mountain 
National Park.
    Is the administration for or against building this road?
    Secretary Norton. I had the opportunity to visit the Great 
Smokeys a few months ago, and so I am familiar with the road 
that you are talking about. We are going through an 
environmental assessment or--excuse me--environmental impact 
statement process right now. We are just at the very beginning 
phase of that. And we do not have a position on that. We will 
look to see what the environmental review tells us.
    Senator Alexander. Well, I hope you will keep me and the 
committee informed of what you find. And this is, if I may say, 
a spectacularly bad idea, that I would hope all the members of 
the committee would be aware of. The Great Smokey Mountain 
National Park has about 10 million visitors a year. It is our 
most visited national park by three times more visitors than 
Yellowstone. It is managed as a wilderness area. And it has one 
road through it.
    And this road is really a road to nowhere. In 1984, when I 
was governor, I came to this committee and testified before it. 
And if I could read just a couple of sentences from my 
testimony on March 27, 1984.
    There is a lot of talk about a road from Bryson City to the 
Hazel Creek embankment. But it does not go anywhere else. It 
just goes there and back. And it is the most rigid, pristine 
park of the Great Smokey Mountain National Park. It does not go 
from one city to another. That road has already been built. So 
the people who need to go from Bryson City to Fontana can get 
there. This is just into the park.
    I hike that trail. It is a very narrow trail. It would be 
huge environmental problems. Now I recognize that the Federal 
Government has a commitment to the people of Swain County. And 
there have been many suggestions made over time that that might 
be satisfied in a lump sum. And I would like to work with the 
administration or members of the House or members of the Senate 
in working something out. But I hope that I can place as big a 
red flag as possible on this road to nowhere and hope that it 
is never built.
    Senator Bingaman asked a little while ago about funding for 
the Land and Water Conservation Fund. What would the 
administration's attitude be if the so-called ANWR legislation 
were to pass authorizing the drilling for oil in Alaska, of 
taking a significant amount of those revenues and using that 
money to fill up the Land and Water Conservation Fund for the 
building of neighborhood parks and other such environmental 
assets?
    Secretary Norton. Well, as the energy bill has progressed, 
there have been various proposals for how to use the funding 
that would come from ANWR. Using some of that funding for 
conservation purposes is something that is part of the 
administration's original conception, And so we are receptive 
to that.
    Senator Alexander. And on one last question, if I may: I 
appreciate your mentioning the larger amount of dollars in the 
administration's budget for road maintenance in the park, in 
the Smokeys, as an example. About half the maintenance work in 
the park is done by volunteers, which is both a good thing and 
a bad thing. We need more money, as well as the volunteers.
    And I would hope that the administration would hang tough 
in the discussions in another committee and in the Congress as 
the road building plans go through Congress and make sure that 
in the highway transportation bill, money is allocated from 
there to do maintenance on existing roads in our National Park 
System because that by itself would probably--well, let me ask 
you this: What part of the national park maintenance backlog is 
maintenance on existing roads?
    Secretary Norton. It is about half of the backlog. We have 
funding to put this on track toward dealing with that. We are 
also working to make that program more efficient. There are a 
number of things, as we talk with the Federal Highway 
Administration, where they could help us more efficiently 
address that backlog.
    Senator Alexander. So new dollars from a transportation 
bill that put revenues into existing roads could reduce the 
national park maintenance backlog by half. And then we could 
take appropriation dollars and go to work on other needed 
maintenance problems.
    Secretary Norton. Yes.
    Senator Alexander. Thank you, Mr. Chairman.
    Senator Thomas. Thank you.
    Just clarification, the park now receives some direct 
highway dollars.
    Secretary Norton. That is correct. We right now are 
getting, I believe, $175 million, $165 million. In the 
Department of Transportation budget, it is $300 million for 
park roads.
    Senator Thomas. I just wanted to make that clear.
    Senator Alexander. Yes. Thank you, Mr. Chairman.
    Senator Thomas. Senator Campbell.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman.
    And welcome to Secretary Norton, who has done such a great 
job for our country. And of course coming from Colorado, as she 
has, we are just very honored to have her in the 
administration. Before she was in her present offices, you 
know, Mr. Chairman, she was the Attorney General of Colorado. 
And I thought she brought a terrific amount of knowledge on 
public lands issues to the Federal Government.
    So, welcome.
    Secretary Norton. Thank you.
    Senator Campbell. And to Lynn Scarlett, who represented you 
so well last summer in the Chairman's State of Wyoming at the 
Grand Teton meeting we had with the Continental Divide trails, 
welcome also.
    By the way, next year's is going to be Glacier, as I 
understand it, if you can get it on your calendar early. That 
is a very important thing to me.
    I am not going to ask Colorado-specific questions. I have 
several, but I think I will just submit those in writing. And I 
will, rather, just kind rebound in my limited time off of some 
of the comments you made and just kind of go down the list from 
my scribbled notes here.
    You mentioned the trust fund problem, which is huge. You 
know as well as I do, Madame Secretary, there are Indian people 
dying, waiting for their money. It is just wrong to not clear 
that up as quickly as we can. It is my understanding that the 
attorneys, by the way, in the Cobell litigation have made over 
$1 million in attorney's fees. And yet there are still Indians 
out there that have not gotten one cent.
    One of the things I proposed last year that I would like 
you to look at, and I am sure you are aware of it, is an 
opportunity for individual people to opt out of that class 
action lawsuit to settle with the Federal Government. Now we 
floated that with the National Congress of American Indians. 
And they think it has some real merits, as do many individual 
tribes. And the people that we dealt with in the administration 
last year, they thought so, too. We did not move forward with 
it, because the only people that are opposed to it, as near as 
I can tell, are the attorneys, for obvious reasons. But I would 
hope that you would look at that and support that as we move 
along.
    Second, you mentioned the fractionization of land and the 
land consolidation. We are spending sometimes hundreds of 
dollars to send a person a check for 15 cents. That does not 
make any sense either. I mean, we have to do better.
    We did a demonstration project, a bill, a few years ago 
that allowed three tribes to consolidate land. It worked 
terrific. And we tried to expand that to be Indian tribes-wide, 
nationwide, but we could not get that through last year. I 
would hope you would look at that and perhaps support that, 
too.
    Third, you did mention the amount of money that the 
Interior is putting into Indian schools, $529 million of 
operating budget and $293 million for building construction. 
Frankly, I do not know if that is enough. We always seem to be 
behind the curve. And I would like to remind you that Indian 
tribes have absolutely no other resources to build their 
schools or for funds, except the Federal Government. That is 
our responsibility. They have no tax base. They cannot raise 
the mill levy. They cannot do anything. The funding is totally 
our responsibility.
    And I do not know for sure, but I know of the growth of the 
Indian kids that are in need. Frankly, I am not sure that is 
going to be adequate.
    You also mentioned energy. And I think that is on 
everybody's mind now with the increase of gas prices going up 
day by day and the potential of disastrous problems in Iraq, if 
the oil fields are burned, if we ended up in a war, and what is 
happening in South America, too. We know that we are in deep 
trouble.
    There was a section that some of us worked on very hard in 
the energy bill last year. There was an Indian section. There 
are still, I mean literally, untold reserves of coal and 
natural gas, as well as, you know, things like wind and solar, 
on Indian reservations. And I thought that that section in the 
energy bill was going to do an awful lot to help reduce our 
dependency on foreign energy and certainly help people that 
need the jobs and need the money.
    That bill got stuck. We never got the thing out of 
conference. I understand it is Chairman Domenici's intent to 
revive that and start with another one. And I am hoping that we 
will be able to get from the start an Indian section. And I 
would hope that the administration would look at that and 
support it, too.
    You also mentioned border security. Last year, it is my 
understanding, was the first time a Park Service employee was 
killed in the line of duty, first time. There is no doubt 
between the parks and the Indian land basis, too, that we are 
going to have a major problem. And I know that a lot of the 
negotiating and the security will be done between tribes and 
with the new Homeland Defense Department. But certainly your 
department is going to be involved in that, too, because of 
your responsibilities through the Bureau of Indian Affairs to 
Indian reservations. And I hope that we are going to be able to 
make sure that that is not a hole in the network of security 
for America, along those public lands.
    And last, I do not have to tell you, coming from Colorado, 
that fires in the West just devastated us last year. All 
indications are it is going to do it again. And I know much of 
the budgets for firefighting are going to come through the 
Forest Service. But certainly fires, they do not know Forest 
Service from BLM. Once they start, they just burn everything in 
sight and keep going. And you are aware of that, too, coming 
from the West.
    I would hope that when the time comes, if we need more 
help, or if you do, if you transfer some funds and do not have 
enough, you will come to us early to talk to us about it, if we 
are going to need some emergency money to fight those 
devastating fires.
    And with that, Mr. Chairman, thank you for the time. And I 
will just submit questions that are Colorado specific.
    Thank you.
    Senator Thomas. Thank you, Senator.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Thank you for being here, Secretary Norton. And my 
questions will be more Alaska-specific. As you know, you spend 
an awful lot of your time working on issues that are very close 
to us. Up in the north, I would like to thank you, first of 
all, for your assistance with the Trans-Alaska pipeline 
reauthorization for the next 30 years. That was a big hurdle 
for us. And in terms of being able to supply gas or--excuse 
me--oil from the north slope, that reauthorization was very 
important to us. So thank you.
    Thank you, also, for including ANWR in the budget that has 
been presented. That will be a very key issue for us, not only 
in terms of the opportunity to hopefully reduce our reliance on 
outside foreign sources of oil, but it is a very significant 
jobs issue for us, not only in the State but throughout the 
country.
    I know that you have been up there to visit. I would extend 
the opportunity again. I know that when you came to Alaska, 
came to the north slope, you had a pretty bitter trip. And I am 
told that----
    Secretary Norton. Just bitter cold.
    Senator Murkowski. Bitter cold. And I am told that there is 
a pineapple express in Alaska now. So if you come up now, you 
will have some warmer weather.
    I would like to ask you, Secretary Norton, about the MPRA 
leasing, the activities that are on schedule for 2005. I would 
hope that the Department's activities are on track, as far as 
those leasing activities are. And I just would like a comment 
to that regard.
    Secretary Norton. Yes. We are going forward with leasing in 
the National Petroleum Reserve. That is basically on track. We 
do have funding in this budget for further activities in the 
Petroleum Reserve.
    Senator Murkowski. Okay. And then as the wilderness issues 
come up, as you know, in the State of Alaska we have more 
wilderness in the State than in any other State. And there has 
certainly been a request to your department to study the 
wilderness issues as they relate to Alaska, recognizing the no-
more clause that was included in the ANILCA provisions and a 
request to thoroughly review that.
    We would like to think that when we say that there is not 
going to be any more wilderness created in the State, that that 
promise would be kept. I know that the delegation has been very 
consistent with this. I understand that there will be another 
letter coming to you this year on that issue. But again, that 
is something that is very, very critical to our State, and we 
would like to think that we would have some ongoing 
conversations on that.
    And just in terms of those promises that have been made to 
the State since statehood under Statehood Act, as they relate 
to, for instance, the submerged lands, there is a lot out there 
that the State of Alaska is still waiting for a title to, our 
lands. As we proceed through this next year, we would hope for 
the cooperation from the Department on these very important 
issues.
    Secretary Norton. We do hope that our new recordable 
disclaimer process should be helpful in dealing with submerged 
lands issues and so look forward to working with you and the 
State on resolving some of those things that have been long-
standing disputes.
    Senator Murkowski. Okay. Thank you.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Madame Secretary, it is good to see you again and to have 
you before our committee----
    Secretary Norton. Thank you.
    Senator Akaka [continuing]. And to welcome you and 
Assistant Secretary Lynn Scarlett and also John.
    Madame Secretary, I have several questions. Actually, I 
have about six. And I will stay within my time. And I will 
probably submit some of them for your responses. Thank you very 
much.
    One of the pressing problems, as you know, facing Hawaii is 
the identification of extensive areas of critical habitat for 
endangered species. And that is done by the U.S. Fish and 
Wildlife Service. These actions are currently taking place in 
Hawaii under court order, but nonetheless Hawaii has the 
highest number of endangered species in the United States and 
faces daunting responsibilities to protect the species and to 
work with the public and conservation efforts. Our State 
agencies are facing overwhelming challenges and lack the 
appropriate funds to address those needs.
    In fiscal year 2003, the budget request for the cooperative 
endangered species fund was reduced by $5.2 million from the 
fiscal year 2002 enacted level. And this year, the fiscal year 
2004 budget is reduced by $2.28 million from last year's level.
    My question to you is: Given the reduction in funding in 
this program, how do you propose to help States, such as 
Hawaii, with ever-increasing burdens to protect and restore 
endangered species?
    Secretary Norton. We do understand the situation that 
Hawaii faces. Part of our approach is trying to work more 
closely with the States and with the State wildlife agencies on 
trying to deal with these issues cooperatively. The approaches 
that we think will be helpful are included in the landowner 
incentive program and the private stewardship grant program.
    Both of those provide competitive grants for endangered 
species enhancement on private lands that can have benefits in 
the overall endangered species program.
    Lynn, can you----
    Ms. Scarlett. As it relates to the listing, we do have an 
increase for the listing of species. But, of course, as you 
mentioned yourself, many of the listings that we are now doing 
are under court order. And we still will be challenged to move 
beyond the court order listings. We do believe we have an 
adequate budget with our increase, though, to address our most 
immediate needs on the listing program.
    Secretary Norton. I will also note that the cooperative 
endangered species program remains at more than three times its 
historic levels.
    Senator Akaka. Madame Secretary, the budget includes $15 
million for--and I am switching to Compact Impact Aid. And that 
is to be divided among Hawaii, Guam, and the Commonwealth of 
the Northern Mariana Islands. In 2001, the number of Compact 
migrants in Hawaii's primary and secondary public schools 
increased by about 28 percent, resulting in costs over $13 
million to the State of Hawaii for the academic year, bringing 
the total cost in education for citizens from the Freely 
Associated States for the State of Hawaii to $78 million since 
1988.
    In addition, in 2001, Hawaii spent over $3.4 million to 
provide medical and social services to Compact migrants. 
Despite the fact that the Compact authorizes appropriations as 
necessary to address the impact of the Compact on affected 
areas such as Hawaii, the State has only received $4 million 
since the Compact was enacted in 1986.
    My question is: How does the Department intend to 
distribute Compact impact aid funding during fiscal year 2004? 
What changes can we expect to receive the legislative proposal 
codifying the negotiations between the United States and the 
Federated States of Micronesia and the Republic of Marshall 
Islands regarding Compact Impact aid for affected areas?
    And another part is: Are there any plans for other Federal 
agencies to pick up some of the Compact impact costs in their 
areas? For example, the Department of Education and the 
Department of Health and Human Services?
    Secretary Norton. Those issues are still part of 
negotiations as those Compacts are being finalized and will be 
presented to Congress as the Compacts come up for 
reauthorization. That is something that we are looking at right 
now, but have not finalized a position.
    Senator Akaka. Mr. Chairman, my time is up.
    Senator Thomas. Thank you, Senator.
    Senator Landrieu.

       STATEMENT OF HON. MARY L. LANDRIEU, U.S. SENATOR 
                         FROM LOUISIANA

    Senator Landrieu. Thank you. Welcome, Madame Secretary. 
Just a few comments--I will have a statement for the record and 
a couple of questions. And I will try to get it all in in 5 
minutes.
    But first of all, as I have reviewed some portions of this 
budget that you are submitting, particularly the Land and Water 
Conservation Fund and a few issues that the Senator from 
Tennessee brought up regarding our State parks and the Senator 
from Hawaii regarding the lack of funding for the preservation 
of Hawaii and the islands and some of the coastal regions, I 
have to just comment for the record that this budget may be a 
stark example of some of the poorest stewardship policies that 
I have seen in my few years here, but that I am aware have gone 
on in the years past.
    The reason I say that is because we are in the midst of a 
great celebration in Louisiana and in this Nation, celebrating 
the 200th anniversary of the Louisiana Purchase, where there 
was a president probably with equal to or greater calls on the 
Federal budget in 1803, a Nation struggling to begin itself. 
You can imagine the pulls on the budget that were before 
President Jefferson's eyes.
    Yet he, with great foresight and great leadership and an 
extraordinary act, borrowed $15 million to purchase 825 square 
miles that helped this country to begin itself, to stand itself 
up, and to begin an extraordinary legacy that we enjoy today. 
At 3 cents an acre, he bought that. He borrowed the money.
    We cannot seem to scrape together enough pennies, we are 
asking for here, to preserve the 50 States, the parks, the 
conservation, the urban parks, the rural parks, the coastal 
lines. And this budget is really--it is reckless in its 
presentation.
    Now, if we were not generating additional money for the 
budget, I would say that, you know, we all have to make 
sacrifices. But the Land and Water Conservation Fund, as you 
know, which was one of the greatest environmental efforts 
brought before this Congress and has funded almost every park, 
whether for a governor or for a mayor or for Congress or for 
the public generally, is funded out of offshore oil and gas 
revenues primarily. Now I know something about that, since my 
State produces 80 percent.
    So for the record, I just want to say and submit for this 
committee that in 1991 we produced $2.7 billion in offshore oil 
and gas revenues, of which a portion was taken out to fund 
these, to try to build on. We will never match the legacy of 
President Jefferson, but we could try to get somewhere close.
    Then in 1996 that number jumped to $4.2 billion. Last 
year--in 2001, 2 years ago, it jumped to $7.5 billion. Why? 
Because Louisiana, Texas, and Mississippi are happy to host the 
offshore oil and gas, you know, exploration for this Nation, 
because of new technologies and environmentally sensitive 
technologies and pressing the envelope. We can drill deeper and 
generate additional funding.
    You would think that an administration would have the 
foresight to take some of that money, restore the cuts that 
have been made over the years, like, for instance, to the Land 
and Water Conservation Fund. This year in this budget, it has 
been on the Federal side this year, 2002--I mean last year, 
2002--$429 million. Next year, President Bush is proposing $187 
million, the lowest level of funding for the Federal side of 
Land and Water maybe in 25 years.
    Secretary Norton. Senator, I think it is very important to 
realize that we have a responsibility to take care of the one 
out of every five acres of land in this country that we 
currently have----
    Senator Landrieu. Okay. I would like to finish, if I could.
    Secretary Norton [continuing]. And we were in a position--
--
    Senator Landrieu. Just a minute. I would like to finish, if 
I could.
    Secretary Norton [continuing]. Where we have the 
responsibility to take care of that land. It is irresponsible 
for us to be spending more to keep buying land that we cannot 
take care of.
    Senator Landrieu. I would like to finish. That is just on 
the top of my list. And I appreciate that. I appreciate it is 
important to take care of the land that we already own.
    BLM went from 50 to 23. Fish and Wildlife Service went from 
99 to 40. National Park Service went from 130 to 78. Fish and 
Wildlife went from 150 to 44. And the State side of Land and 
Water, which I most certainly support and every member of this 
committee does, basically stays flat, 144 to 150, a slight 
increase. Wildlife goes down to 60. And UPAR is zeroed out, 
zero for urban parks in the Nation.
    And in addition, Louisiana, after 10 years of drilling, 
when other States have put moratoria down--our State continues 
to drill. We are not a rich State. We are rich in natural 
resources. But we could use a lot of help--get not one penny 
from the drilling, as you know, which is something that we need 
to try to fix.
    But $40 billion has been generated--I just want this 
committee to know, in 10 years $40 billion has been generated 
in offshore oil and gas revenues. You would think that we would 
have the foresight, the fortitude, the gumption, the guts, the 
courage to take a portion of this money and fund something so 
important as conservation for this Nation. And, let me say, the 
restoration of the coast of Louisiana, Texas, and Mississippi, 
which represents 80 percent of the coastline in this Nation, 
that is disappearing at a rate of 37 square miles a year.
    If the Rockies were eroding 10 feet or 15 feet a year or 20 
feet or 30 feet or whatever it would be, the country would be 
in an uproar if our mountain peaks were disappearing. Our 
coastline is disappearing. But this President has turned a 
blind eye, a blind eye.
    Senator Thomas. The Senator's time has expired.
    Senator Landrieu. And I know my time has expired. I am 
going to put a statement in the record. And I want to let my 
colleagues on this committee know, I am going to fight like a 
tiger to try to help turn this policy around. We had an idea 
and a plan. We can come back and modify it. But this is 
absolutely for our grandchildren not what we need to be in 
Congress to do.
    Secretary Norton. If I can point out, during the previous 
administration, the full funding for the Land and Water 
Conservation Fund, both Federal and State side together, was in 
the neighborhood of $150 million a year. We are vastly 
exceeding that amount. And we are putting that money into the 
kinds of programs that we think are going to be very----
    Senator Landrieu. That is not true. That is absolutely, 
blatantly not true.
    Senator Thomas. Senator, I believe we are going to go on to 
the----
    Senator Landrieu. Thank you. And I will submit this for the 
record.
    [The prepared statement of Senator Landrieu follows:]

       Prepared Statement of Hon. Mary L. Landrieu, U.S. Senator 
                             From Louisiana

    The Interior Department is a welcomed and needed partner in the 
ongoing effort to restore the Florida Everglades. In fact, in the 
budget before us, almost $112 million is allocated for restoration 
activities. Those of us from Louisiana have been supportive and have 
followed this project with great interest. Our wetlands in Louisiana, 
which we refer to as America's Wetlands, are being lost at a rate of 35 
square miles a year, which represents more than 80% of all coastal 
wetland loss in the entire continental United States.
    This wetland area in Louisiana is of world ecological significance 
and its loss has enormous environmental consequences, as the area is 
now an intricate ecosystem on the verge of collapse. It is also a 
working wetland, hosting production and distribution of more than 80% 
of the offshore oil and gas supply for America (which also provides the 
OCS revenues to fund a number of the programs in this bill). More than 
25% of all oil and gas consumed in this nation comes across Louisiana's 
shore by tanker, barge or pipeline. The Louisiana Offshore Oil Port 
(LOOP), which is the only offshore oil terminal in the United States, 
handles 13% of the United States' imported crude oil and As the 
protective wetlands become open Gulf, more than 20,000 miles of 
pipelines and other critical energy infrastructure become vulnerable to 
environmental catastrophe and put the nation's economic and energy 
security at risk. It is from these wetlands that distribution of oil 
and gas supplies to the entire eastern U.S. begins. If interrupted, the 
consequences are costly, with supplies put in jeopardy, and the 
environmental damage is unthinkable.
    These wetlands serve as protection from hurricanes and storm surges 
for more than two million people living in the coastal zone, including 
the city of New Orleans, and act as a buffer for the number one port 
system in the United States that moves the nation's goods from middle 
America to world markets.
    They accept the drainage of two-thirds of the United States through 
the Mississippi River, and as a result, the largest dead zone in the 
world has been created at the mouth of the river in the Gulf of Mexico.
    More than 30% of the nation's fisheries catch comes from offshore 
Louisiana and it is the natural nursery ground for much of the nation's 
seafood, with 95% of all marine life in the Gulf of Mexico spending 
part of its life cycle in these coastal wetlands.
    America's Wetland is home to the nation's largest flyway, serving 
as habitat for more than five million birds and many endangered 
species. As the wetlands wash away, this habitat is lost.
    Is this Administration aware of what is taking place with respect 
to these wetlands, and their significance to the rest of the country? 
What role can I tell people in Louisiana it might play in restoring 
them?

               Table 2.--OIL AND GAS REVENUES FROM FEDERAL OFFSHORE LEASES, FISCAL YEARS 1991-2001
                                                  ($ millions)
----------------------------------------------------------------------------------------------------------------
                                                          Offshore                               Total revenues
                    Year                    ------------------------------------     Total         (onshore &
                                              Bonuses    Royalties      Rents      offshore        offshore)
----------------------------------------------------------------------------------------------------------------
1991                                            338.9     2,283.5         78.1      2,793.2        3,926.4
1992                                             84.8     2,301.8         59.7      2,561.4        3,869.3
1993                                            126.5     2,476.9         39.8      2,856.9        4,072.3
1994                                            331.4     2,334.0         39.9      2,915.3        4,222.4
1995                                            414.0     2,125.4         87.3      2,723.7        3,829.7
1996                                            878.2     3,085.4        158.7      4,253.6        5,494.0
1997                                          1,410.7     3,444.6        228.4      5,259.2        6,721.8
1998                                          1,320.3     2,704.0        258.5      4,322.6        5,608.4
1999                                            249.3     2,611.7        208.5      3,188.4        4,560.2
2000                                            441.8     4,094.6        207.8      5,209.7        7,123.8
2001                                            632.5     6,047.3        188.5      7,500.4       10,008.7
----------------------------------------------------------------------------------------------------------------
Source: Mineral Revenues, 2001.


 INTERIOR APPROPRIATIONS FUNDING CONSERVATION SPENDING CATEGORY PROGRAMS
------------------------------------------------------------------------
                                Enacted FY    Omnibus
            Program                 '02         '03       President '04
------------------------------------------------------------------------
Federal LWCF..................  $429        $309        $187.2 million
                                 million     million
------------------------------------------------------------------------
--BLM.........................  $50         $36         $23.6 million
                                 million     million
------------------------------------------------------------------------
--FWS.........................  $99         $78         $40.7 million
                                 million     million
------------------------------------------------------------------------
--NPS.........................  $130        $87         $78.6 million
                                 million     million
------------------------------------------------------------------------
--FS..........................  $150        $135        $44 million
                                 million     million
------------------------------------------------------------------------
State LWCF....................  $144        $98         $160 million
                                 million     million
------------------------------------------------------------------------
State Wildlife Grants.........  $85         $65         $60 million
                                 million     million
------------------------------------------------------------------------
UPARR.........................  $30         $15             0
                                 million     million
------------------------------------------------------------------------

    Senator Thomas. Senator Dorgan, please.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Madame Secretary, I am going to show you a couple of 
bottles of water. This is water from Keith and Ann Anderson's 
farm in Scranton, North Dakota. It looks a little like weak 
coffee. This is water from the Senig Station in New Leipzig, 
North Dakota. It looks like tea. And finally, this is water 
from that region as a result of the rural water system called 
the Southwest Pipeline.
    Now, I do not know whether OMB has been drinking some of 
this water. But you talked about the program assessment rating 
tool. We have a rural water system in North Dakota that has 
been zeroed out called the NAWS project, or the Northwest Area 
Water Supply project. It was authorized 17 years ago. The 
groundbreaking was last year, and now it is zeroed out.
    Can you explain that?
    Secretary Norton. The program, as I said, found that the 
Department of the Interior program was not as effective as 
programs in USDA and EPA that serve about five times as many 
people for the Federal money expended. The feeling was also 
that our program did not have criteria for eligibility, for 
cost sharing; that it did not look at ability to pay as a part 
of the reimbursement requirements. There were a number of 
things like that that were identified as lack of having a 
strong program in place.
    We also want to work to have new legislation submitted that 
would provide that kind of overall programmatic look at these 
rural water projects, we want to look at the overall approach 
to it and to evaluate how it is done across the board.
    Senator Dorgan. Well, I am not asking an overall question 
at the moment. I am asking a question about the people in 
Minot, North Dakota, and the people in northwestern North 
Dakota, who are concerned about water quality and were promised 
this project through an authorization 17 years ago and 
groundbreaking last year. We now see a recommendation that we 
ought to cut this funding.
    In fact, on page BH-34 of the Interior budget and brief, 
the brief says, that the PART, or Program Assessment Rating 
Tool, was used. ``Overall, the programs are effectively 
managed.'' Now, it is referring to rural water programs, and 
stating ``Overall, the programs are effectively managed.''
    Is this the case with the Northwest Area Water Supply 
project in North Dakota, do you think?
    Secretary Norton. The assessment was that the Department of 
the Interior's handling of the program was good. The deficiency 
identified was in the criteria legislatively established for 
the program, or the lack of essentially overall legislation, 
the lack of a program in that sense.
    Senator Dorgan. So what should the people of Minot, North 
Dakota, and the people of northwestern North Dakota, who face 
struggles with water quality, what should they take from your 
answer here? Should they assume that you like their project, 
that you are going to fund their project, and that you want to 
stop it for a while? Or should they assume that this is out of 
your hands, and it is actually the decision of the OMB?
    Incidently, I have done a program assessment rating tool on 
OMB, and I recommend we zero funding for OMB at this point. But 
my guess is my colleagues will not support that.
    But tell me, what should they take from this? What should 
the people who have had a groundbreaking, or a project that is 
underway, take from the administration's recommendation for 
zero funding?
    Secretary Norton. There are two things. First that we will 
work with you on trying to establish an overall program and on 
legislation that would deal with that. Secondly, that----
    Senator Dorgan. Can you tell me when you would do that? No 
one gave us----
    Secretary Norton. We anticipate submitting legislation in 
the fairly near future.
    Senator Dorgan. Was there consultation on the issue of 
zeroing out rural water systems? No one consulted with me or 
anyone else. I am trying to understand what they should think 
about this matter in northwestern North Dakota. Do you like 
their program? Do you dislike their program? Are you going to 
fund it next year, or the year after? What should we tell them?
    Secretary Norton. The overall philosophy has been to fund 
those programs that work most effectively. And this program was 
found to be one that did not have a programmatic effectiveness 
to it.
    Senator Dorgan. So you are saying this program is a 
problem. Are you talking about rural water, or are you talking 
about the NAWS program in North Dakota?
    Secretary Norton. The rural water overall.
    Senator Dorgan. So you are not upset about the NAWS program 
because you have not studied it?
    Secretary Norton. All of these were studied together, in 
essence. This was an evaluation that dealt across the board 
with all of the rural water programs.
    Senator Dorgan. So it is nothing personal. It is just that 
we are going to zero out all of them, even if some are 
excellent, and some have had a groundbreaking and are underway. 
We are just going to say ``Stop them all for a while.''
    Secretary Norton. The problem that was identified was, in 
essence, there were no criteria against which to measure; there 
was nothing that said the Federal share is 70 percent, the 
State share is 30 percent, or those kinds of----
    Senator Dorgan. Yes. But how about----
    Secretary Norton [continuing]. Things for the overall 
program.
    Senator Dorgan. How about this criteria? Is that a 
measurement? (holding up the water)
    Secretary Norton. I certainly sympathize with the concerns 
about lack of water quality. We are trying to work towards 
dealing with water quality issues facing the West across the 
board because there are going to be water supply problems 
facing many areas of the West in the future.
    Senator Dorgan. But let me tell you----
    Secretary Norton. So we are trying to be creative in our 
ways of dealing with those.
    Senator Dorgan. Madame Secretary, I am sick and tired of 
waiting. This goes back to 1945 with the Pick Sloan plan, the 
1965 Act, the 1985 Act, and the reform. We have run out of 
patience. Now that we have had a groundbreaking, we think, 
``Well, we have the shovels at least. We have all the people 
gathered.'' Your folks even came. Then months later, we hear, 
``Oh, we do not want to fund it anymore. We want to zero it 
out.''
    Why? Because there is something wrong with this project? 
No, there is nothing wrong with this project, apparently. It is 
some generic world view.
    So I think this is nuts. With all due respect, we have real 
water problems, real water quality issues. I would like to know 
at some point whether we are going to see funding for something 
that is very important, for which construction has already 
begun. We have done the groundbreaking. We authorized it 17 
years ago. If I sound upset, I am. I mean, these things----
    Senator Thomas. The Senator's time has expired.
    Senator Dorgan. Are we going to have a second round?
    Senator Thomas. Yes.
    Senator Dorgan. Because I want to ask her about an Indian 
school that they have decided not to fund as well.
    Senator Thomas. We will have a second round.
    Senator Dorgan. All right.
    Senator Thomas. Okay. Thank you.
    Senator Bingaman.
    Senator Bingaman. Thank you, Mr. Chairman.
    Let me ask about the recordable disclaimer process. The 
Department recently finalized so-called disclaimer of interest 
regulations, which I understand is a mechanism to use to 
disclaim Federal interests in these RS-2477 right-of-ways 
across Federal lands. I believe there is a Federal moratorium 
that prohibits any final rule, and the language is, any final 
rule ``pertaining to the recognition, validity, or management 
of an RS-2477 right-of-way unless approved by an act of 
Congress.''
    Is this disclaimer of interest regulation to be used to 
address RS-2477 claims? And, if so, why are these regulations 
not in violation of that congressional moratorium?
    Secretary Norton. The recordable disclaimer is something 
like a quit-claim deed.
    Senator Bingaman. Right.
    Secretary Norton. It is, in essence, the way the Federal 
Government accomplishes that same kind of purpose. And it can 
be used in a variety of different categories as a quit-claim 
deed could be used. As I mentioned to Senator Murkowski, that 
would apply, for example, in resolving claims to submerged 
lands, so that we could work with the States to resolve some of 
those issues outside a courtroom complex, or courtroom context.
    Ordinarily, the way that we have dealt with those things in 
the past, with Alaska as an example of submerged lands, is 
going to court and fighting it out in court and then going 
through the quiet title process. This basically is something 
that provides a mechanism for resolving those issues.
    Senator Bingaman. You do not see this prohibition that 
exists today in Federal law against any final rule that 
pertains to recognition, validity, or management of these RS-
2477 rights-of-way, you do not see that as limiting how you use 
this recordable disclaimer.
    Secretary Norton. No, I do not, because it is something 
that has a broader application than that.
    Senator Bingaman. Okay. So your view is that if the 
Department of the Interior determines to, essentially, file 
quit-claim deeds to these rights-of-way, these RS-477 rights-
of-way, it is perfectly within the law in doing that.
    Secretary Norton. What I found when I came to the 
Department of the Interior was that we have lots and lots of 
issues that are unresolved and have been unresolved for 
decades, conflicts we have with States and with local 
governments and so forth. And I would like to see some of those 
things resolved.
    Essentially, they are questions of ownerships, who owns the 
various kinds of rights, whether it is submerged lands, RS-
2477, boundary disputes, whatever those kinds of things are. In 
essence, we need to do some housecleaning to figure out who 
owns what.
    And that is something I would like to see us work with the 
States to resolve. I know that there have been States and local 
governments that have filed suit or threatened suit. Alaska has 
been to the U.S. Supreme Court several times trying to get 
these disputes sorted out. So I think it makes sense to sort 
those things out.
    We do not yet have a comprehensive program for dealing with 
those things across the board.
    Senator Bingaman. My concern is that a lot of the lands 
involved here involve wildlife refuges, wilderness areas, and 
other sensitive areas. There are claimed rights-of-way to have 
roads across these areas. You are right, they have been in 
dispute for some time. But, in our zeal to houseclean and clear 
these things up, the solution you have come up with is, ``Let 
us go ahead and disclaim the Federal interest and essentially 
agree with the State or with the''----
    Secretary Norton. Not necessarily. Not at all. I mean, for 
example, in the Alaska context, what we would like to do is sit 
down and discuss rationally what those claims would be. We have 
some in Glacier Bay, for example. We are litigating because we 
have not been able to reach an agreement on what those claims 
are.
    Senator Bingaman. Would you anticipate resisting State and 
local claims where that would interfere with your 
responsibility to protect these areas?
    Secretary Norton. It is a question of legitimate ownership. 
I mean, if we have a State with a dead-to-rights claim that 
they own something, then we ought to recognize that. On the 
other hand, if we have a claim that seems spurious, we ought to 
resist that. And so I think it makes sense for us to try to 
resolve those issues that, you know, on either end are fairly 
clear.
    Senator Bingaman. Let me just ask one other question. Then 
I will not do another round, Mr. Chairman.
    Your view is that you could make a decision about the 
validity of an RS02477 claim without violating the moratorium 
that exists in current law today?
    Secretary Norton. That has always been the case.
    Senator Bingaman. Thank you, Mr. Chairman.
    Senator Thomas. Okay. Thank you, sir.
    Just a couple of items here: All the members know that 
additional questions may be submitted, if there is not time to 
do them here. And then I would like to ask that this statement 
from Senator Craig be included in the hearing, if there is no 
objection.
    [The prepared statement of Senator Craig follows:]
   Prepared Statement of Hon. Larry E. Craig, U.S. Senator From Idaho
    In reviewing the DOI budget, it appears to continue to reflect the 
Secretary's goals of promoting the Four C's: conservation through 
consultation, cooperation, and communication. I look forward to working 
with the Secretary and the Department on further developing these 
concepts in our public lands communities.
Recreation Fee Program
    I am aware that authorization for the Demonstration Program expires 
at the end of this Congress. While the program has been successful in 
some states, I hope that as the Administration drafts their proposal 
they will provide flexibility for those states in which the program has 
not been successful. In Idaho, I believe it is fair to say that the 
implementation of the program got off on a rocky start and the people 
of Idaho have never fully accepted the program.
PILT
    I appreciate the Administration's efforts to increase PILT funding. 
This funding is vital to our public lands counties and their efforts to 
recognize this are commendable. I will work with my colleagues on the 
Appropriations Committee to see that this budget request is fulfilled 
for the counties.
National Fire Plan
    I also appreciate the Administration's efforts to address needed 
increases in the National Fire Plan. While I realize these increases do 
not cover all of the need, the attempt by the Administration to 
increase the budgets in a difficult spending year shows their desire to 
address this priority.

    Senator Thomas. Madame Secretary, the Land and Water 
Conservation Fund seems to have been something of the focus 
here today. I must tell you that I am pleased that we are not 
focusing on additional purchases in most of our States. We have 
a good deal of Federal land. And the addition of Federal land 
is not really my goal, but to help and make the land we have 
better.
    In this fund, it is funded at $900 million. But they go 
different places. Would you comment a little on how you intend 
to use this land and water conservation money?
    Secretary Norton. Okay. We have used a number of existing 
programs through which to provide conservation approaches. 
First of all, we used the traditional Federal and State land 
acquisition programs. Then we utilized the challenge cost 
shares, which are basically amounts that are made available for 
park superintendents or refuge managers to be able to cost 
share with local communities for on-the-ground conservation 
projects. It might be wetland enhancement or something like 
that.
    We also have State and tribal wildlife grants, cooperative 
endangered species funds, neotropical migratory bird 
conservation, and then landowner incentive programs and 
stewardship programs dealing with at-risk or endangered 
species, as well as the Fish and Wildlife Service coastal 
program and migratory bird joint ventures program.
    So all of those are ways in which we build cooperation with 
a private sector or local governments or other kinds of 
partners in order to further conservation initiatives. We think 
that with this group of programs we will better able to show 
some real conservation results.
    Senator Thomas. So this is implementing the partnership 
program that you and the President have talked about.
    Secretary Norton. Yes, Senator.
    Senator Thomas. Okay. I will not ask any more. We need to 
keep on moving. I would just comment that I hope in the course 
of our work in this committee we take a look at the heritage. 
And heritage areas are a good thing. But we have not described 
them. We have not given any qualifications to them. We have not 
really decided what the amount of money and sharing ought to 
be. So I hope we will take a look at that and use it. But it 
has now become kind of a runaway program, in my view. And we 
need to have some containment and some definition, I think, of 
heritage programs.
    Senator Murkowski.
    Senator Smith, we are going around. We will be back to you 
in just a moment.
    Senator Murkowski. Nothing further, Mr. Chairman.
    Senator Thomas. Thank you.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I will 
take your advice and submit my other questions.
    But let me ask this one, Madame Secretary: As mentioned in 
my previous question, negotiations between the United States 
and the FSM and RMI on title II, Economic Relations, of the 
Compact of Free Association, are being finalized, as you 
mentioned. These provisions expire on September 30, 2003. And 
we are hoping that Congress will be able to take action by that 
time.
    I chaired a hearing on this issue in December 2001. And at 
that time, I was assured that we would receive the proposal in 
fall of 2002. While I understand that the State Department is 
in charge of the negotiation, the Department of the Interior 
handles its implementation.
    My question to you is: When do you anticipate that the 
legislative proposal will be sent to Congress?
    Secretary Norton. That program, from my perspective, is 
being handled by David Cohen, who is part of Lynn Scarlett's 
operation. So let me defer to Lynn.
    Ms. Scarlett. Yes, Senator. I spoke with David Cohen 
yesterday about the progress on this. And as far as the 
Department of the Interior is concerned, we have advanced all 
of the elements for which we have responsible, and much of that 
has been resolved. But we are still waiting for some final 
negotiations that are in the State Department's hands relating 
to immigration and other issues. We are hopeful that that will 
be concluded relatively soon.
    Senator Akaka. Thank you very much.
    Mr. Chairman, I will submit my other questions.
    Senator Thomas. Thank you, Senator.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Let me ask you about the United Tribes Technical College. 
And Madame Secretary, I seldom ever get irritated before noon. 
So let me do it all over again, if it is all right with you.
    I know it is parochial to talk about the NAWS project and 
the United Tribes Technical College. But, frankly, zeroing out 
both of them is very troublesome. You visited the United Tribes 
Technical College last year at my request. This is a college 
with 415 students. It is the only inter-tribally controlled, 
post-secondary vocational college in the country. It has been 
operating for 33 years, and had always been funded, except last 
year when the administration proposed that it be zeroed out.
    I added money in the Appropriations Committee that was in 
the omnibus appropriations bill. So it is still open. I asked 
you and Mr. Caleb, I believe it was, to stop there. You were in 
Bismarck giving a speech, and you were good enough to go stop 
there last year. In fact, I was just looking at the news story. 
It says, ``Secretary of the Interior expresses support for 
tribal college.'' But that is the news story. I understand how 
headlines develop.
    So you have been there, and you understand the 
circumstances with American Indians. This is a wonderful, 
wonderful college. It has been there 33 years. All of a sudden, 
we have these recommendations from the administration to zero 
out, the $3 million in funding. Why?
    Secretary Norton. I was impressed by the college and by its 
program. And I felt that it was a good program. We are working 
to try to bring that under the umbrella of some of our other 
existing programs. That is one aspect of this.
    The other problem is in making the difficult choices to 
fund the Indian trust program. This was one of those difficult 
choices that we had to make in order to fund the historical 
accounting and other aspects of Indian trust.
    Senator Dorgan. I understand that. But as I look at a 
broader context of critical choices and judgments, those 
choices including exempting dividends from taxation, and 
closing an Indian school, somehow it does not all match to me, 
to have an administration that says, ``We have to make tough 
choices. Let us give an $80,000 tax cut to an average person 
with $1 million a year in income. But then let us say that we 
cannot afford to keep United Tribes Technical College open.''
    The first point was that you were looking at this under the 
umbrella of other programs. What can I take from that? Does the 
administration believe that United Tribes Technical College 
should be closed? Does the administration believe it should 
remain open, and that you would like to fund it in some other 
way?
    Secretary Norton. We currently fund about 25 other college 
and junior college-type programs. This is the only one that has 
its separate line item. We would like to bring that in with our 
other----
    Senator Dorgan. Actually, there are two, this and Summit 
Point.
    Secretary Norton. You are right.
    Senator Dorgan. There are two.
    Secretary Norton. There are two others. We would like to 
bring them in as part of our overall program.
    Senator Dorgan. But is it the administration's position, 
having visited the school, that this college should remain 
open, or should it be closed?
    Secretary Norton. I think it seems like a good program. It 
has been funded outside of Federal funding in the past. I know 
that our Federal share is a portion of the operating budget. 
But it is my understanding that is not the entire operating 
budget.
    Senator Dorgan. But the school will close without Federal 
funding support. We have supported it for 33 years. Because you 
have recommended zero funding, my question for not only the 
Indian tribes in some 40 States who are sending kids there, but 
also for the people in Bismarck and others who have hosted this 
wonderful college, which I visited often, is should it remain 
open? If so, is this just a case of trying to find the money 
and put it in the right line, or does the administration 
believe this college should not remain open?
    Secretary Norton. I am very supportive of Indian education. 
Our approach has been to focus more of our resources on the 
elementary and secondary school programs. As we have had to 
make tough choices, that is where we have put our funding, as 
well as, as I said, trying to fund the Indian trust programs.
    Senator Dorgan. I did not understand that answer to my 
question.
    Secretary Norton. It is a great school.
    Senator Dorgan. Do you think the Federal Government ought 
to continue to support this school?
    Secretary Norton. We do not have the funding available to 
do that for this fiscal year within our budget. It is a tough 
choice. Just because something is a good program does not mean 
we have funding available for every program.
    Senator Dorgan. But, do you understand how I see things? 
While we might disagree, do you understand that I see that 
there is this incessant push for exempting dividends from 
taxation or doing other things, some of which seem to be low 
priority to me, and then we are told that this school, which is 
so critical to particularly Native Americans has to be closed. 
Incidently, the kids attending that school come from areas with 
a 71-percent average jobless rate. There is 71-percent 
unemployment in the regions that attract kids to this school.
    I happen to think that is a high priority, especially if it 
is a good school. The United Tribes Technical College is fully 
accredited. Everybody says this is a great school. These kids 
are coming from areas of very high unemployment, the highest in 
the Nation. How can anyone say this does not represent a 
priority, that it is not a top choice? How can anyone say that?
    Secretary Norton. I think I have already answered the 
difficult choices we have had to make. We will continue to try 
and bring that under the umbrella of some of our existing 
programs.
    Senator Thomas. Time. Your time has expired, Senator.
    Senator Dorgan. I did not ask some larger questions about 
policy. I will submit some of those in writing.
    I appreciate your answering the questions about the two 
areas. We, of course, will try to fund both of them here with 
respect to our priorities in Congress. I do not know whether we 
will be successful. But, I disagree with the notion of what the 
right choices are here.
    Madame Secretary, thanks for appearing before the 
committee.
    Senator Thomas. I understand the Senator's concern. I would 
have to say that some of us have reservations that do not have 
federally funded colleges, just for whatever that is worth.
    Senator Dorgan. I do not understand the point.
    Senator Thomas. My point is we do not all share the same 
kind of resources that you are talking about.
    Senator Dorgan. This college is not on a reservation.
    Senator Thomas. No, but it is primarily for that, is it 
not?
    Senator Dorgan. Well, we have a network of tribal colleges, 
as you know, in this country.
    Senator Thomas. No. We do not have any.
    Senator Dorgan. I understand that. And those are the ones 
that are on reservations. I thought that was the point you were 
making.
    Senator Thomas. I guess I should not have made my point. I 
am just saying that is not uniformly the case throughout all 
the reservations.
    Senator from Oregon.
    Senator Smith. Thank you, Mr. Chairman.
    Madame Secretary, it is a pleasure to have you here. Thank 
you for coming and testifying about the budget. I want to 
express to you also my appreciation for your attention to the 
situation in Klamath Falls. I happened to have been reading my 
news clips last night. And I noticed several articles from 
different newspapers about the enormous returns of coho salmon 
to the coastal rivers of the State of Oregon. And I think that 
is really, really good news.
    And notwithstanding the problem during that one period of 
time when some salmon perished because of a virus, I think we 
ought to focus on the fact that there is also a lot of good 
news about salmon recovery. And so it does seem to me that some 
of the efforts that have been made are helping. And also, 
hopefully we are learning what are the conditions that are 
resulting in this enormous return of salmon to the Pacific 
Northwest.
    I am sure that--I hope the science is being collected. We 
are talking about real science, not political science, as we 
talk about this.
    I am also interested in if you have any sense of the state 
of the sucker fish that we are trying to protect in the Upper 
Klamath, because my understanding from people there is that the 
populations of the sucker fish are very solid right now. Is 
that your understanding?
    Secretary Norton. I am hearing generally good things. But I 
understand that we are still getting some more final scientific 
information.
    Senator Smith. I would love to hear it as soon as you know 
what the real facts are. Because my understanding is that they 
are to be celebrated, not to be criticized, that we are making 
some real progress. And some of that may be the budget that the 
administration is putting towards the Klamath. I want to thank 
you for the $20 million you have put forward for the 2004 
budget. And I pledge my best effort to make sure that it turns 
into reality.
    But also, I want to point out that for several years now, 
we have been fighting, Senator Wyden and I, to get $10 million 
in there for fish screening. And that is a project that will be 
completed April 1. And it is a good thing. And it apparently is 
working. And I am wondering if you anticipate any improved 
flexibility from the U.S. Fish and Wildlife in the operation of 
this, because these screens are now to be in place. Is there 
going to be any operational plan because of these new assets?
    Secretary Norton. Well, obviously we have to work with the 
biologists to make sure that we are operating appropriately. 
But the general approach is to get the fish screens in there to 
give us more of an enhanced fish population so that we do 
eventually have more flexibility. We are also working to get an 
environmental water bank put together, so that we can make sure 
that water is available for release appropriately for fish. 
That is something we are currently trying to work on with the 
farmers in that area, to sign them up for that, and would 
appreciate working with you and Senator Wyden to get the 
farmers to participate in that.
    Senator Smith. Yes. Okay. I heard a rumor the other day 
that there is an impression that the farmers are only asking 
and not giving anything. And I want to dispel that, because I 
think one of the complaints I continue to hear from the farmers 
is they give and they give and they give and they never get any 
credit for how much that they are giving to this whole project 
to make sure the water is there for the fish. And my plea is 
only that they be included for some water at the end of the 
day, because they certainly, in my view, can demonstrate they 
are giving an awful lot of what they have historically had to 
the benefit of the environment there. And I hope they are not 
left out in the final allocation.
    Do you have a sense, under the BLM whether there will be 
any timber in Oregon identified under the northwest forest plan 
in the coming year?
    Secretary Norton. I do not know specifically about 
particular areas identified. We are looking at the northwest 
forest plan and settlements of some litigation in that area. It 
is currently under discussion.
    Senator Smith. I would like to bring to your attention the 
priority that ought to be given to the Lewis and Clark 
bicentennial that is coming up in 2004/2005. When you and I 
were there, you were new on the job. And we went out to Fort 
Clatsop and talked about what they had there and what they are 
proposing to have available for this bicentennial celebration. 
One of the things was a hiking trail from the fort to the 
Pacific Ocean where Lewis and Clark and their party often went 
in order to see the ocean and obviously to fish there and hunt 
as well.
    The proposal is to rebuild it, and yet there is no money in 
it. And I just would like to focus the Department, if it can, 
on this very historic event in our region and, frankly, for our 
country and make it a little bit more of a priority, as we ramp 
up for what is not just history but a real economic opportunity 
to--a lot of tourism will flow through there. And I do not know 
that we are ready for it yet.
    Secretary Norton. There might be some things in our 
cooperative conservation initiatives that might be helpful in 
that project. We would be happy to look at those things with 
your staff.
    Senator Smith. Thank you, Mr. Chairman.
    Thank you, Madame Secretary.
    Senator Thomas. Thank you, sir.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Welcome, Secretary Norton. Let me begin on forestry issue. 
As you know, we had severe fire problems throughout Oregon last 
year. We appreciated you visiting the Biscuit fire. Senator 
Smith has already touched on some of our concerns. Let me 
start, if I might, with the question of how you all are 
allocating money to deal with issues related to the wildland 
urban interface and the non-wildland urban interface.
    Previously, I have gone out on a considerable political 
limb to say that it is important to have a significant forest 
health initiative outside the urban interface. I think it needs 
to be done.
    But the fact that you devote two-thirds of your fuels 
reduction efforts to non-wildland urban interface lands is 
causing some in the West to say this is not a balanced 
approach; this is an approach that basically says that under 
the guise of fuel reduction, you are just going to go ahead 
with your forestry agenda.
    What can we do to get a more balanced approach, and make 
sure particularly that we focus the fuels reduction to that 
urban interface area? Senator Smith and I saw how acute the 
problem was, for example, in places like Ashland and more 
populated areas. I want us to get a bill this year. We were 
very, very close last year, working with Senator Smith, myself, 
Mark Rey, yourself, and others. I want us to get a bill.
    I think to get it we are going to have to have a balanced 
approach in terms of fuels reduction in the urban interface and 
the non-urban interface. There is a lot of criticism out there 
that too much of it is going outside the urban interface.
    We want to work with you. We want to have a bipartisan 
bill. And we have to do it quickly. Senator Smith and I do not 
want to see these communities become sacrifice zones, and that 
is what is going to happen if we do not have a fuels reduction 
effort that is ongoing. We are going to have these fires year 
after year after year. And just as sure as the night follows 
the day, we will have them again this upcoming summer. I want 
us to move forward.
    Tell me your thoughts on how we can achieve balance and 
give ourselves a chance to get a program through.
    Secretary Norton. I just issued guidance to my staff a 
month or so ago that sets the priorities for their decisions on 
which areas are going to have fuels treatment and how those 
funds are prioritized. This gives the highest priority to the 
wild land urban interface.
    About two-thirds of that money, of the upcoming money, 
should be going to those kinds of projects. Now obviously, when 
you have things like Fish and Wildlife Service lands, you know, 
their focus is really on habitat and enhancement of habitat. 
They do not always fit within that wild land urban interface 
kind of context. But we are putting a very high priority on 
that.
    Senator Wyden. I think we are making some headway. Let me 
just state, though, that I want to make sure that it is both 
money and acreage, that we are concentrating in the wildland 
urban interface, so that we can go out to our part of the 
country and say ``We have a balanced program.'' Certainly, 
there are a lot of environmental groups who want us to devote 
every dime to just the urban interface. I have said we have to 
have a significant effort outside the urban interface.
    Secretary Norton. And that is true. I mean, we need to----
    Senator Wyden. But the cost----
    Secretary Norton. We need to protect wildlife habitats. 
There are a couple of factors. One is that it is just more 
expensive to do the wild land urban interface areas because we 
cannot use prescribed burns in the same way that you can in 
some other areas.
    We also have areas in the south especially, where they have 
not had the same kind of fire suppression policies over time 
that we have had in some of the West where they have used 
prescribed burns more regularly. Keeping those in their current 
state of having regular treatments is something that makes 
sense. I have discovered that this is a lot more complex than I 
initially thought that it was.
    Senator Wyden. Well, you are certainly right about that. 
Senator Smith and I have seen that repeatedly. I would just 
urge, though, that in the name of really getting this done now 
and having a balanced, environmentally sound program that is 
also sensitive to the needs of these communities, we need to 
figure out a way to balance money and acreage between the urban 
interface and other kinds of areas.
    At least at this point I am getting a lot of flack that not 
enough is going to the urban interface area. Suffice it to say, 
another way to do this is to simply get more money into the 
accounts, which I am anxious to do, given how serious the 
problem is. I just want you to know that our region feels 
strongly about that.
    Secretary Norton. We also hope to work on stewardship 
contracting with local communities to help deal with some of 
those wild land urban interface areas.
    Senator Wyden. It is a constructive----
    Senator Thomas. Your time has expired, Senator.
    Senator Wyden. Could I ask one other additional question, 
Mr. Chairman?
    Senator Thomas. Let me see if Senator Smith wants to----
    Senator Smith. No.
    Senator Thomas. Go right ahead.
    Senator Wyden. I thank my colleague.
    Secretary Norton, we are very appreciative of you working 
with us on the Klamath Basin. The only question I had is that 
in June of last year, Senator Smith, Congressman Walden, and 
myself sent the President a letter outlining a number of 
projects we thought would generate support among both the 
agricultural community, the environmental community, and a host 
of other interested groups. On most of those we have not been 
able to get any action and they are not in the budget.
    I would like you to get back to me on these and let us know 
their status.
    We will provide you with another copy of the June 11 letter 
and ask you to respond in writing. Again, we have made 
progress, but we have a lot more to do.
    Secretary Norton. Thank you. We will do that. And I 
appreciate your assistance on that.
    Senator Wyden. Thank you, Madame Secretary.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you, Senator. Thank both of you for 
coming and all the other Senators.
    Thank you, Ms. Secretary. We want to work with you 
throughout the year. And of course all of us have great 
interest in it. And our whole country does, I think. I do 
understand and recognize and sympathize a little. The 
Department has to be managed; and when you manage, why, some 
things are set as priorities other than others. And that is 
just the way it has to be. And I understand that. There is a 
limit to what is available, of course, to you. So I understand 
what you are saying.
    There may be other questions that will be submitted after 
the hearing. Otherwise, thank you very much.
    Secretary Norton. Thank you.
    Senator Thomas. And the committee is adjourned.
    [Whereupon, at 11:47 a.m., the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                 Washington, DC, February 14, 2003.
Hon. Gale Norton,
Secretary, U.S. Department of the Interior, Washington, DC.
    Dear Madam Secretary: I would like to take this opportunity to 
thank you for appearing before the Senate Committee on Energy and 
Natural Resources on February 11, 2003, to give testimony regarding the 
Department of the Interior's FY04 Budget request.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
response to these questions by February 28, 2003.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                          Pete V. Domenici,
                                                          Chairman.
[Attachments]

    [Note: Responses to the following questions were not 
received at the time the hearing went to press].

                    Questions From Senator Domenici
    Question 1. What progress has DOI made toward correcting the 
maintenance backlog in our National Parks and what are your short-term 
priorities for addressing the backlog?
    Question 2. What are the benefits of Cooperative Conservation and 
more specifically, how have visitors to the National Parks benefitted 
from this initiative?
    Question 3. How does your 2004 budget estimate compare with the 
2003 estimate and why have you chosen to decrease funding for this 
effort?
    Question 4. Since the first Heritage Area was designated in the 
1980's, how much of the National Heritage Area program has been funded 
by the Department of the Interior and how much by outside sources?
    Question 5. What other programs at DOI have you targeted to offset 
for the increase in Indian Trust funding?
    Question 6. Madam Secretary, what sort of funding challenges have 
you experienced and how much funding do you anticipate needing in the 
future to manage the former DoD properties?
    Question 7. Secretary Norton, how will your new water initiative 
help to reduce the impact of drought in the west and what additional 
funding needs do you anticipate in the future to continue the four-
point water program?
    Question 8. Interest in Coalbed Methane has grown dramatically in 
the past few years but a backlog on planning and NEPA compliance has 
been a problem. What progress has the Department made on authorizing 
new Coalbed Methane production?
    Question 9. What plans has the Department made for increasing 
opportunities for renewable energy on federal lands?
    Question 10. The Department recently released a new study showing 
significant amounts of undiscovered oil and gas resources. How will 
this information be used by the Department?
    Question 11. The President often speaks of the need to find and 
produce more energy at home while protecting the environment. What has 
the Department done to improve inspection and enforcement on oil and 
gas activities?
    Question 12. What progress has the Department made in implementing 
this legislation?
    Question 13. How will the Department coordinate Land Acquisition 
funding generated in this program with that of the LWCF program.
    Question 14. The Department has included a proposal to move the 
PILT Appropriation from BLM's budget to the Department's. Can you 
explain the purpose behind this proposal?
    Question 15. Will this change improve the opportunity over time to 
reach authorized levels for PILT payments?
    Question 16. I am very concerned with a recent news report about 
BLM ``retiring'' grazing in a National Monument. Can you verify this 
report and explain the intent of this precedent setting action?
    Question 17. What progress has BLM made in addressing the backlog 
of expiring grazing permits?
    Question 18. The Department recently announced plans to make 
changes to regulations concerning range management. What kinds of 
changes do you envision?
    Question 19. Does the Department of the Interior have adequate 
funding to handle the predicted 2003 fire season conditions?
    Question 20. Has the Department of the Interior considered other 
resources, such as State agencies' and local fire departments' 
capabilities, in their preparedness model?
    Question 21. Is the proposed FY 2004 budget adequate to maintain 
fire preparedness levels and still move forward with a hazardous fuel 
reduction program?
    Question 22. How will you prioritize the selection of fuel 
reduction activities, and how long will it take to achieve the 
hazardous fuel reduction goals of the National Fire Plan?
    Question 23. How well has the Interior Department been working with 
its non-federal partners to develop and prioritize fuel reduction 
projects? Describe how you are working with States and other agencies?
    Question 24. How much funding is needed to aggressively address 
weed problems that result from last year's fires or future fires?
    Question 25. Will you keep me up to date as new developments in the 
Western Water Initiative evolve and how can we work together?
    Question 26. As you may know, last Congress I brought Sandia 
National Laboratories together with the Bureau of Reclamation to begin 
work on finding ``next generation'' desalination technologies that 
would reduce the cost of desalination. Through this collaborative 
process, these two agencies are developing a ``technology roadmap'' 
that I believe will produce the kind of advanced technology we need. 
Are you familiar with this program?
    Question 27. Could this ``technology roadmap'' tie in with your 
vision for desalination in the new Western Water Initiative?
    Question 28. Has the department championed the ESA Workgroup's 
mitigation work in court? Why not?
    Question 29. I notice in your budget that you have included funds 
for court imposed requirements, such as buying water. However, there 
are no funds included for any type of long term solution. What will the 
Department's role be in the long term plan and are you going to be 
prepared to help fund such a plan?
    Question 30. As you know, New Mexico is very fortunate to have the 
San Juan Chama Project which brings Colorado River Basin water to the 
Heron Reservoir on the Rio Grande in Northern New Mexico. This water 
was developed through a cooperative effort and holds the key to meeting 
Albuquerque, Santa Fe and other cities future drinking water needs. 
Last October, I wrote you a letter expressing my concern about how this 
water had become a target of opportunity in the Minnow v. Keys 
litigation, where the plaintiffs seek the involuntary release of 
imported water to cure the possible harm to an endangered species. The 
gravity of the District Court's ruling is enormous and I cannot stress 
enough, how using imported San Juan Chama water for anything other than 
municipal purposes would severely impact a large part of the New Mexico 
economy.
    Question 31. Madam Secretary, that same letter that I wrote also 
referenced a Supreme Court opinion, Sweet Home v. Babbit, which 
requires a causal nexus between the harm caused by a federal action and 
the remedy granted by a Court under the Endangered Species Act (ESA). 
When you answered my letter, you acknowledged that the ESA does not 
provide independent authority to use Colorado River Basin water to 
address issues concerning endangered species on the Middle Rio Grande. 
What I asked in the letter was the Department's policy, if one exists, 
on the causal nexus between harm and the federal action. Does the 
Department require a causal connection between water used as a remedy 
for endangered species and harm caused to the species?
    Question 32. What is the policy of the Department on using imported 
water for an imported fish?
    Question 33. I do note that the President's budget includes a $2 
million increase for the Middle Rio Grande Project. We have had various 
funding concerns with regard to the Middle Rio Grande project including 
the repair of levees, dredging the intake channel at Elephant Butte, 
and rehabilitation of the low flow conveyance channel, just to name a 
few. These costs are above and beyond the various legal obligations 
Interior has and will likely continue to incur as a result of the 
minnow litigation. Is the Department taking the necessary steps in 
preparation of meeting any additional legal and financial obligations 
that could result from the 10th Circuit decision?
    Question 34. Collectively, the 2004 budget request includes a 53% 
reduction for rural water programs. I understand that this cut was a 
result of OMB's new Program Assessment Rating Tool. Can you explain 
what this new tool is and how it is being applied?
    Question 35. How will this impact rural communities reliant on the 
program?
    Question 36. Madame Secretary, in the aftermath of September 11th, 
there has been increased concerns about the safety of some of 
Reclamations resources, in particular some of the countries major dams. 
What is currently being done to ensure that Reclamations infrastructure 
is safe from potential threats?
    Question 37. Could you please provide for the Subcommittee a 
breakdown of the homeland security costs for each agency and program? I 
think it behooves this Subcommittee to review what the Department has 
accomplished and what further requirements need to be addressed?
    Question 38. While the Committee is pleased to see the 
Administration's emphasis on law enforcement and security, could you 
give the Committee a brief assessment of identified security 
requirements for Department of the Interior agencies, and provide 
information on how the requested funding matches these requirements?
    Question 39. Does the Administration have in place, or is it 
working on a multi-year plan to address identified security 
requirements? If so, would you please provide the subcommittee with the 
a status report on the current planning process?
    Question 40. What kind of toll is the new homeland security mission 
taking on Department personnel?
    --Is additional training required, and if so, will that proceed in 
this fiscal year?
    --Are Departmental personnel working overtime, and if so, are there 
sufficient funds to pay the overtime required?
    Question 41. Can you please characterize the Department and 
agencies' collaboration with the new Department of Homeland Security 
and the Office of Homeland Security that preceded it?
    Question 42. What general impacts are the new homeland security 
requirements having on ongoing agency missions and programs?

                      Question From Senator Thomas
    Question. The Administration has recommended extending the AML fees 
through 2013. As you might expect, I oppose this proposal. The program 
is flawed and the states and tribes due money are being shortchanged. 
Can you provide me with an explanation as to why the Administration 
would seek re-authorization of fees for a program that has not meet its 
stated objectives for the past 25 years?

                      Questions From Senator Smith
    Question 1. I want to thank you and the President for including 
over $20 million in the 2004 budget request for the Klamath Project, 
which I certainly support and will work for. However, I remain 
concerned that the funds we are spending in the basin to date have not 
resulted in either recovered fish species or renewed flexibility in 
project operations. For example, I have worked with my colleagues over 
the past several years to secure more than $10 million in additional 
funds for the screening of the A-canal, one of the main diversions for 
the Klamath Project.
    It is my understanding that this project will be completed by April 
1st of this year. Can you tell me when the Fish and Wildlife Service 
will determine how much operational flexibility will be restored to the 
federal project as a result of this screening?
    Question 2. Does either the Fish and Wildlife Service or the Bureau 
of Reclamation have a program to monitor the effectiveness of this 
screening in maintaining and restoring sucker populations in the Upper 
Basin?
    Question 3. When will the Fish and Wildlife Service develop a water 
plan for the Klamath Basin Refuges, in order for us to use these water 
resources most effectively to meet the many needs in the Basin?

                     Questions From Senator Talent
    Question 1. The management of the Missouri River is a very 
important issue to the people in my state and throughout the basin. 
There's an existing permit between the Corps and the USFWS. Why doesn't 
that permit allow the Corps to move birds in time of drought as well as 
under flood conditions?
    Question 2. Does the Department of the Interior plan to revisit the 
designation of critical habitat for the piping plover in the reach 
below Gavin's Point Dam due to the serious and extensive economic harm 
that resulted from the low flows during summer `02?
    Question 3. What Department of the Interior monies are available 
for the monitoring of and for obtaining additional scientific data for 
the pallid sturgeon?

                    Questions From Senator Bingaman
    Question 1. The Department recently finalized its so-called 
``disclaimer of interest'' regulations, which I understand you intend 
to use to disclaim, among other matters, Federal interests in asserted 
R.S. 2477 rights-of-way across Federal lands. Does the Department 
intend to revise the current policy outlining the requirements needed 
to determine whether an R.S. 2477 claim is valid?
    Question 2. Many of the claimed R.S. 2477 rights-of-way would cross 
lands under your protection, such as national parks, wildlife refuges, 
wilderness areas and other sensitive areas. What actions will you take 
to ensure that the management and protection of these areas is not 
compromised?
    Question 3. I understand that the Department is still negotiating 
privately with the State of Utah regarding R.S. 2477 rights-of-way 
claimed by the State. Can you update me on the status of these 
negotiations. Can you please identify which lawsuits the State of Utah 
has filed against the United States with respect to these claims?
    Question 4. Why, If the Administration is intent on changing the 
purpose of the Land and Water Conservation Fund, doesn't the 
Administration propose legislation to amend the fund for the uses it 
desires?
    Question 5. As you know, the LWCF Act requires that no less than 40 
percent of the expenditures from the fund each year be used for Federal 
purposes. Your budget proposes considerably less than that for Federal 
acquisitions. Why have you chosen to ignore the requirements of the 
law?
    Question 6. Can you tell me what funding and actions the 
Administration is proposing to ensure that the BLM is able to provide 
for the proper planning, management, and protection of the recently 
established national monuments under its jurisdiction?
    Question 7. Last year, legislation was introduced in the Senate to 
authorize the use of snowmobiles in Denali National Park in Alaska. The 
bill would have allowed the snowmobiles to be used in parts of the park 
where they historically had not been allowed, as well as within 
Congressionally designed wilderness. Do you support that proposal?
    Question 8. The National Park Service Organic Act states that the 
purpose of national park areas is ``to conserve the scenery and the 
natural and historic objects and the wildlife therein and to provide 
for the enjoyment of the same in such manner and by such means as will 
leave them unimpaired for the enjoyment of future generations.'' The 
National Park Service has previously interpreted this legislative 
directive to mean that if there is a conflict between recreational use 
and resource protection, the protection of the resource takes priority. 
There is a concern among some that your Department is considering 
weakening this so-called no-impairment standard. Can you tell me 
whether or not you are committed to upholding this management policy?
    Question 9. Has BLM requested money in the 2004 budget for the Rio 
Puerco Watershed? If so, how much? Will it go to specific projects 
recommended for the Committee for funding?
    Question 10. Do you agree that local watershed committees such as 
this one are a valuable means to address natural resource problems? 
Should we be trying to create such committees on a larger scale west 
wide?
    Question 11. The 2003 water supply situation in the Rio Grande 
basin is bleak. Obviously, this will exacerbate the ongoing conflict 
between water users and environmental needs in the basin. I know that 
Reclamation and the Fish & Wildlife Service are actively working with 
local entities to develop a plan to get through this year and I very 
much appreciate their efforts. Crisis management will only go so far, 
though. The USGS is reporting that there is substantial scientific 
evidence that we could be entering a long-term drought cycle in the 
West. The President's budget calls for an $11 million Western Water 
Initiative for several activities, including enhanced water management 
and conservation. While I applaud the concept, $11 million won't go 
very far--particularly when spread out over several initiatives.
    Given the likelihood of continued drought and its implications for 
local economies, shouldn't the federal government be substantially 
investing in a comprehensive water management and conservation program 
to more efficiently use our limited water supplies and lessen the 
impacts of drought and competing new demands?
    Question 12. Many parts of the West are experiencing a record 
drought. What is the Department doing to anticipate and address the 
effects of the drought? Are there any specific programs that are 
available to mitigate the impacts of drought on Indian reservations?
    Question 13. You recently exercised your authority as Master of the 
Colorado River by taking steps to ensure that California lives within 
its legal allocation of Colorado River water. As a representative of 
one of the Basin States, I supported your efforts. How do you believe 
the Department can best play a constructive role in the coming months 
to address these serious issues on the Colorado River?
    Question 14. There are critical water supply needs in rural America 
that need to be addressed and I believe it is appropriate federal 
policy to assist those small communities meet those needs. The 
President's budget, however, provides no funding for several 
Congressionally-authorized rural water projects. How can you justify 
this, particularly when the impacts of drought are severely impacting 
rural America?
    Question 15. The Bureau currently does not have a comprehensive 
program to address and prioritize rural needs. I believe Congress 
should enact legislation to provide for such a program. Would the 
Department be willing to work with me on this legislation? What is the 
Administration's time frame for submitting legislation to the Congress?
    Question 16. Half of the citizens of the United States depend upon 
groundwater for their drinking water supply. In New Mexico, 90 percent 
of the population depends upon groundwater. The U.S. Geological Survey 
is doing important work to gain a better understanding of our Nation's 
groundwater resources. I am interested in ensuring that the USGS has 
adequate authorities and resources to undertake this work. Would you be 
willing have your staff work with us to see if any further legislation 
is needed in this area?
    Question 17. The budget for the Bureau of Reclamation contains a 
water initiative, one component of which is to promote water banking to 
add flexibility in dealing with competing demands for contracted water 
supplies. Can you please explain what future role you think water 
banking can play in addressing water needs in the West?
    Question 18. Do you have the funding you need to provide for site 
security at the dams, monuments and other critical infrastructure 
administered by the Department?
    Question 19. The Budget request for the Bureau of Reclamation 
reflects a significant decrease in funding for wastewater recycling and 
reuse projects. The budget request states, ``While water reuse and 
recycling is important to meeting the west's future water needs, this 
activity is not one of Reclamation's core functions.''
    Why don't you view these projects, which you yourselves indicate 
can make a significant contribution to meeting future water needs, as 
part of the Bureau's core functions?
    Question 20. What are the core functions of the Bureau?
    Question 21. The Department entered into a settlement agreement in 
litigation pending in federal court in California, the Sumner Peck 
litigation, under which the United States agreed to pay substantial 
money damages to several parties. Unlike most settlements that I am 
familiar with, the amounts are not being paid out of the Judgement 
Fund, but rather must come out of the Bureau of Reclamation's budget. I 
see that the Bureau has funded this year's portion of the settlement 
($34 million) by reducing several wastewater recycling and reuse 
projects, and proposes to reduce the Central Valley Project 
expenditures by $34 million for FY04 in order to pay for next year's 
portion of the settlement.
    Can you explain why the damages are not being paid out of the 
Judgement Fund?
    Question 22. Please provide a copy of any legal analysis setting 
forth the reasons as to why the Judgement Fund is not available in this 
instance.
    Question 23. What assurances can you give us that the settlement 
will not be funded out of Bureau of Reclamation initiatives in the 
other Reclamation states?
    Question 24. The President's budget for Interior includes $99 
million for the implementation of Indian Water Rights settlement. A 
large part of that number is funding for the Animas-La Plata project as 
part of the Colorado Ute settlement. I'm concerned, though, because 
significantly more funding will be needed over the next few years to 
complete A-LP within the statutory time frame. Moreover, that's just 
the tip of the iceberg. There are active negotiations across the West, 
including 2 in New Mexico that are close to resolution. Funding just a 
few of these settlements would easily exceed $1 billion. Nonetheless, 
resolving Indian water rights are a federal responsibility and critical 
to water management in the states.
    Has the Department formulated any plan to address funding for 
Indian water rights settlements and the strain that will have on the 
federal budget?
    Question 25. For the second year in a row, the President is 
proposing to cut by half the funding that historically gone to the 
Navajo Indian Irrigation Project (NIIP) for completion of that long-
delayed project. My understanding is that the Department would return 
to increased funding levels once the Navajo Nation had reorganized the 
management structure of the Navajo Agricultural Products Industry, the 
entity that utilizes the water made available by NIIP. It's also my 
understanding that progress has been made in this effort.
    Please explain the basis for the reduced funding in the 2004 
budget. What is anticipated for future funding levels and what impact 
will this level of funding have on construction of the project?
    Question 26. What rulemakings is the Department anticipating during 
the remainder of FY03 and FY04? Please list these rulemakings 
(including draft and final rules) by subject matter and Bureau with 
expected date of publication.
    Question 27. Will you commit to consulting with us prior to the 
issuance of draft and final rules?
    Question 28. What Solicitor's Opinions are currently under review? 
What Solicitor's Opinions do you expect to review during the remainder 
of FY03 and FY04? Please provide a list.
    Question 29. The Budget Highlights document indicates that for many 
Bureau accounts, uncontrollable costs will be ``absorbed''. For each 
account where this is indicated, please explain how these costs will be 
absorbed and what activities, if any, will be cut as a result.
    Question 30. We understand that the Department is engaged in an 
outsourcing initiative. Please provide the Committee with specific 
information on a Bureau-by-Bureau basis as to how this initiative will 
be implemented. What lay-offs or reductions in FTE's are anticipated in 
each of the Bureaus? Please provide a list of positions and functions 
that will be outsourced in each bureau.
    Question 31. The Budget materials repeatedly reference a PART 
review process. Please describe the process. How were programs selected 
for review? Please provide a listing of all the programs of the 
Department that were reviewed under this process and the outcome of the 
review. Please provide a copy of the PART analysis and any report with 
respect to each program of the Department that was the subject of the 
PART review.
    Question 32. What programs are currently being reviewed under the 
PART process?
    Question 33. The Committee did not receive the Fiscal Year 2004 
Budget Justifications, with the exception of the Budget Justification 
of the Bureau of Reclamation and the Central Utah Project Completion 
Office, prior to the Committee's hearing on the Department's Budget. 
This hindered preparation for the hearing. Can we get your commitment 
that all of the Budget Justifications will be provided to the Committee 
for next fiscal year on the day that the President's Budget is 
transmitted to the Congress?
    Question 34. What activities is the Bureau undertaking with respect 
to site security? Is the budget request adequate in this regard?
    Question 35. The budget request anticipates increased oil and gas 
activity in deep water in the Gulf of Mexico. Please provide your 
estimates on the level of activity and projected annual production of 
oil and gas from deepwater in the Gulf of Mexico.
    Question 36. MMS's budget materials indicate that streamlining and 
office closures are anticipated. Please provide details regarding these 
streamlining efforts and office closures. What are the streamlining 
measures that will be taken? What offices will be closed and when? Will 
personnel be laid off?
    Question 37. Last June, I held a hearing to evaluate the problems 
which were causing the non-payment of oil and gas royalty payments to 
Navajo Nation allottees. While the Cobell court-ordered computer 
shutdown exacerbated the problem, it was clear that a substantial part 
of the problem was also due to a confusing multi-agency process that 
broke down on several levels. Has this problem been remedied--both for 
the short- and long-term? What specific actions have been taken?
    Question 38. The Budget request indicates that the Administration 
may recommend modifications to the Surface Mining Control and 
Reclamation Act. What changes are being considered?
    Question 39. The budget highlights book indicates that the Budget 
request for FY04 assumes a lease sale in the Arctic National Wildlife 
Refuge in 2005, with $1.2 billion as the federal share of in bonus 
bids. These funds would then be dedicated to alternative energy R&D. 
Does the budget assume that the R&D funds would be subject to 
appropriation?
    Question 40. There are significant reserves of coalbed methane in 
the Powder River Basin and the San Juan Basin. Recently, the Bureau of 
Land Management released an Environmental Impact Statement projecting 
significant new development of coalbed methane in Wyoming and Montana. 
I understand that the BLM is currently working on a similar analysis 
with respect to future development in the San Juan Basin. Will you keep 
us advised of your progress on this Environmental Impact Statement? 
When do you expect this Environmental Impact Statement to be released?
    Question 41. The production of coalbed methane has created some 
conflicts with companies having rights to develop coal resources and 
with surface users (such as ranchers) and water users. Specifically, 
what steps is the Department taking to address and minimize these 
conflicts? Have you issued any new rules or guidance relating to 
surface use conflicts? If so, please provide us with a copy.
    Question 42. Last September, the Director of BLM wrote to me and 
committed to hire during FY2003 an additional 13 inspectors for the oil 
and gas inspection and enforcement program for New Mexico. Can you 
provide me with your schedule for hiring these inspectors? When can we 
expect them to be on the job?
    Question 43. What is the total amount of funding for the oil and 
gas I&E program included in the request for FY04? Please provide a 
table showing the funding for this program (both requested and enacted) 
for the previous 6 years.
    Question 44. What is the total amount of requested funding for oil 
and gas NEPA compliance for FY04? Please provide a table showing the 
funding for NEPA compliance (both requested and enacted) for the 
previous 6 years.
    Question 45. The budget includes substantial funding for oil and 
gas development activities on the North Slope of Alaska. This includes 
funding for planning for additional lease sale activities in the 
National Petroleum Reserve-Alaska.
    What additional lease sales is BLM planning to undertake? When will 
these take place? Please provide a projected schedule. What are the 
estimates of oil and gas resources in the NPRA? Please provide this 
information by planning area.
    Question 46. I understand that there is estimates of enormous 
natural gas resources in the NPR-A. Will the Administration work with 
us to facilitate the construction of a transportation system for 
natural gas produced from the North Slope?
    Question 47. I understand that the Department is considering taking 
another look at the Northeast Planning Area of the NPR-A with the 
possibility of opening some lands for development that were not made 
available for leasing by the prior Administration. Is this correct?
    Question 48. What areas in particular would be the focus of this 
review?
    Question 49. Is this review the result of new information or 
changed circumstances?
    Question 50. Has BLM conducted an inventory of abandoned, orphaned 
and idled wells on lands administered by BLM? If so, please describe. 
How many of each category of well (abandoned, orphaned, or idled) is 
located on BLM administered lands? Please provide the information by 
state.
    Question 51. What does the Center for Integration of Natural 
Disaster Information do? Why do you believe it is no longer necessary?
    Question 52. Given the clear need for mechanisms to gather and 
present natural disaster information so it is useful to officials, 
decision makers, and the public, how will you meet this critical need 
without the CINDI?
    Question 53. Explain what the Advanced National Seismic System is 
and provide your rationale for eliminating it.
    Question 54. Please describe the ``lower priority mapping'' that 
you propose to eliminate that would result in $2.8 million savings.
    Question 55. Please explain the $4.4 million in savings associated 
with the National Map. Please provide the results of the PART review 
and the justification for cutting funding for the program.

                      Questions From Senator Akaka
    Question 1. One of the pressing problems facing Hawaii is the 
identification of extensive areas of critical habitat for endangered 
species by the U.S. Fish and Wildlife Service. These actions are 
currently taking place in Hawaii under court order, but nonetheless 
Hawaii has the highest number of endangered species in the U.S. and 
faces daunting responsibilities to protect the species and to work with 
the public in conservation efforts. Our State agencies are faced with 
overwhelming challenges and lack the appropriate funds to address the 
needs. In FY 2003, the budget request for the Cooperative Endangered 
Species fund was reduced by $5.2 million from the FY 2002 enacted 
level; and this year, the FY 2004 is reduced by $2.28 million from last 
year's level.
    Given the reduction in funding in this program, how do you propose 
to help States such as Hawaii with ever-increasing burdens for 
developing critical habitat plans to protect and restore endangered 
species?
    Question 2. Please provide a list of the grant awards of the 
Landowner Incentive Program and the Private Stewardship Grants program, 
by state, for FY 2002 and FY 2003.
    Question 3. How does the Department intend to distribute Compact 
Impact aid funding during FY 2004? What changes can we expect to 
receive in the legislative proposal codifying the negotiations between 
the U.S. and Federated States of Micronesia and Republic of the 
Marshall Islands regarding Compact Impact aid for affected areas? Are 
there any plans for other federal agencies to pick up some of the 
Compact Impact costs in their areas, for example the Department of 
Education and the Department of Health and Human Services?
    Question 4. As mentioned in my previous question, negotiations 
between the U.S. and FSM and RMI on Title II of the Compact of Free 
Association (Economic Relations), are being finalized. These provisions 
expire on September 30, 2003, unless Congress takes action. I chaired a 
hearing on this issue in December 2001. At that time, I was assured 
that we would receive the proposal in Fall 2002. While I understand 
that the State Department is in charge of the negotiations, the 
Department of the Interior handles its implementation. When do you 
anticipate that the legislative proposal will be sent to Congress?
    Question 5. Can you please share with me your estimate of what 
level of funding in the proposed budget would be available for Hawaii 
and other States which face the management of thousands of non-native 
species and increased rates of new introductions on federal lands?
    Question 6. What portion of the proposed budget would be used for 
innovative approaches to contain invasives, such as efforts to identify 
pathways, or vectors, of new introductions, so that these models can 
used across the nation? How do you plan to work with other agencies 
such as USDA to undertake this task?
    Question 7. How will an increase of only $200,000 allow the 
Department to adequately address monitoring, restoration, and 
protection, and allow for the ``pioneering scientific research'' that 
is promised and needed for coral reefs? For the record, can you please 
provide specific details about how the $10.1 million will be allocated 
to specific parks and refuges with coral reef habitat.
    Question 8. With the dramatic increase in recreational boating 
across the Nation, States depend on the Clean Vessel Act program to 
educate boaters and to maintain cleaner, more healthful waters for 
swimming and fishing. Yet the Administration has again proposed level 
funding of only $10 million for this valuable program. Can you please 
share with me the Department's plans to meet the goals of safe, 
healthful recreation on our waterways and bays when providing only 
level funding for a program that is a critical link in this equation?
    Question 9. With a 56 percent reduction in the LWCF programs, how 
do you intend to meet the obligations for land acquisition for parks 
that are in line for funds to acquire additional lands and cultural 
resources in the next few years? What assurances can you provide that 
this Administration is committed to the LWCF process to build strong 
and robust national parks?

                     Question From Senator Cantwell
    Question 1. I wish to express my appreciation to you for the 
Department of the Interior's commitment to promote partnerships with 
private landowners through the Landowner Incentive program and the 
Private Stewardship program in the President's FY 2004 budget request. 
In Washington State, there are tens of thousands of non-industrial 
private landowners who manage several millions of acres of forested 
lands. Many of these small landowners are working to conserve their 
lands for salmon and other species, while generating income through 
forestry activities. In Lewis County, Washington, for example, local 
forest landowners have established the Family Forest Foundation to 
develop a county-wide habitat conservation plan geared towards small 
landowners.
    To help conserve family forests throughout the state, the State of 
Washington recently established the Small Forest Landowner Office to 
provide assistance to small forest landowners with regard to state 
forest practices and other programs. Given your commitment to work with 
private landowners, I was wondering if you would support naming a 
federal employee within the Department or the U.S. Fish and Wildlife 
Service, as part of a pilot project, to serve as a liaison to small 
private landowners to help them identify federal assistance as they 
navigate the regulatory requirements of the Endangered Species Act and 
other federal laws.

                      Questions From Senator Wyden
    Question 1. Scientists warn of using a cookie-cutter approach to 
dealing with the fuel loading in our nation's forests: forests adapted 
to fire in different ways--Eastern Oregon's ponderosa pine forests, for 
example, historically had short fire return intervals with low 
severity, while Oregon's Douglas Fir and Hemlock forests of the Coast 
range historically have had much longer fire return intervals and much 
more intense fires--often of stand replacement severity. What is the 
Department doing to assure that it is pursuing practices and techniques 
that are scientifically sound and appropriate for each particular 
ecosystem?
    Question 2. Given the National Interagency Fire Center's 
predictions regarding the severity of this summer's wildfire season 
what steps are being taken NOW to reduce and mitigate the effects upon 
our most vulnerable communities in the Wildland Urban Interface?
    Question 3. You have requested an additional $35 million for 
wildland fire suppression operations. Yet, the Biscuit Fire on 
primarily Forest Service Land in Oregon and northern California has 
cost--to date--$153 million. Is this $35 million increase sufficient, 
given that the National Interagency Fire Center is predicting that 2003 
could be yet another year of record fires across the West?
    Question 4. The Bureau of Land Management attributes $5 million of 
its increased Wildland Fire Preparedness budget to increased costs of 
aircraft contracts, which the BLM says are due to higher insurance 
costs in the post September 11th environment. Yet, during the 2002 fire 
season we saw three crashes of contracted aircraft (two air tankers and 
one helicopter) which resulted in five fatalities. An Interagency Blue 
Ribbon panel determined that aircraft age, insufficient maintenance, 
and insufficient oversight contributed to these avoidable tragedies. 
What is the BLM and its federal partners doing to assert more control 
and oversight over its aviation contractors?
    Question 5. The Administration wants to spend $1.7 billion fighting 
wildland fires in this budget--almost $700 million is for the BLM's 
efforts. But according to a report produced last year by the Forest 
Service, crews were buying $10 pens, L.L. Bean tents, carpet for 
campsites, and getting paid overtime to go sightseeing. What will you 
do to assure that such abuses of the taxpayers trust do not happen 
again?
    Question 6. How can the Administration assume $2 billion of 
receipts from Arctic National Wildlife Refuge drilling in its budget 
when the Administration's budget uses 5-year projections and the Energy 
Information Administration at the U.S. Department of Energy estimates 
it would take seven to twelve years after environmental reviews are 
completed in order for the leasing of drilling sites to occur?
    Question 7. In June of 2002, I, along with Senator Smith and 
Congressman Walden, wrote to President Bush regarding the Klamath Basin 
in southern Oregon. In the letter I asked the President to work with 
the delegation to identify an additional $125 million from the Farm 
Bill and other sources to address the complicated and pressing needs in 
the Klamath Basin (letter attached). I do not see reflected in the 
President's FY 2004 budget any of the solutions that I and Senator 
Smith and Congressman Walden suggested to the Administration in our 
letter of June 2002. Madame Secretary, what are the specific solutions 
that you plan to propose for the Klamath Basin? What are the costs 
associated with these solutions? Which of our requests are in the 
President's budget--why or why not? Water users in the Klamath Basin 
have no more assuredness of receiving adequate allocations of water 
than they did in 2001. I request a prompt response to this inquiry.

                    Questions From Senator Feinstein
    Question 1. Do you believe the CALFED Bay Delta program can be an 
effective model for preventing or mitigating environmental/water supply 
conflicts like we have seen on the Klamath, Columbia or Rio Grande 
rivers?
    Question 2. Are you willing to commit the Department of the 
Interior to full and active participation in the CALFED program, 
including seeking needed funding to restore California's water supplies 
as spelled out in the CALFED plan?
    Question 3. From my reading of the President's 2004 budget request 
for the Bureau of Reclamation, the state that would receive the 
greatest share of Bureau funding is Colorado, with $225,978,000. 
California trails with $197,173,000. Can you explain why Colorado would 
receive more Bureau funding than California?
    Question 4. Colorado would receive more funding in part because the 
Animas-La Plata project would receive a funding boost from $35 million 
in the omnibus conference report to $58 million in FY 2004. Animas-La 
Plata's gains come at the expense of CALFED, which is downgraded from 
$23 million in the FY 2003 omnibus to $15 million in the President's FY 
2004 budget. Can you explain the differential treatment of the Animas-
La Plata project and CALFED in the President's budget?


</pre></body></html>
